<html>
<title> - WEAK LINKS: HOW SHOULD THE FEDERAL GOVERNMENT MANAGE AIRLINE PASSENGER AND BAGGAGE SCREENING?</title>
<body><pre>[Senate Hearing 107-208]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-208

WEAK LINKS: HOW SHOULD THE FEDERAL GOVERNMENT MANAGE AIRLINE PASSENGER 
                         AND BAGGAGE SCREENING?

=======================================================================

                             JOINT HEARING

                               before the

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                                and the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
              RESTRUCTURING, AND THE DISTRICT OF COLUMBIA
                              SUBCOMMITTEE

                                 of the

                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs


76-802              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Susan E. Propper, Counsel
              Jason M. Yanussi, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
                Ellen B. Brown, Minority Senior Counsel
                 Dan G. Blair, Minority Senior Counsel
           Alison E. Bean, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                 RICHARD J. DURBIN, Illinois, Chairman
DANIEL K. AKAKA, Hawaii              GEORGE V. VOINOVICH, Ohio
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               THAD COCHRAN, Mississippi
       Marianne Clifford Upton, Staff Director and Chief Counsel
               Andrew Richardson, Minority Staff Director
          Mason C. Alinger, Minority Professional Staff Member
                     Julie L. Vincent, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Durbin...............................................     1
    Senator Lieberman............................................     5
    Senator Voinovich............................................    21
    Senator Thompson.............................................    27
    Senator Akaka................................................    55
Prepared statements:
    Senator Cleland..............................................    63
    Senator Bunning..............................................    64

                               WITNESSES
                      Tuesday, September 25, 2001

Monte R. Belger, Acting Deputy Administrator, Federal Aviation 
  Administration, U.S. Department of Transportation..............     8
Hon. Kenneth M. Mead, Inspector General, U.S. Department of 
  Transportation.................................................    10
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, U.S. General Accounting Office.........................    13
Robert W. Baker, Vice Chairman, American Airlines................    31
Rear Admiral Paul E. Busick, USCG Ret., President and Executive 
  Director, North Carolina Global TransPark Authority............    34
Leonard L. Griggs, Jr., Director of Airports--City of St. Louis, 
  Lambert-St. Louis International Airport........................    38
Aubrey ``Bill'' Harvey, Jr., Training Supervisor for Argenbright 
  Security at O'Hare International Airport.......................    40
Michael B. La Pier, A.A.E., Executive Director, Central Illinois 
  Regional Airport...............................................    41

                     Alphabetical List of Witnesses

Baker, Robert W.:
    Testimony....................................................    31
    Prepared statement...........................................   105
Belger, Monte R.:
    Testimony....................................................     8
    Prepared statement...........................................    65
Busick, Rear Admiral Paul E.:
    Testimony....................................................    34
    Prepared statement with an attachment........................   109
Dillingham, Gerald L.:
    Testimony....................................................    13
    Prepared statement...........................................    87
Griggs, Leonard L., Jr.:
    Testimony....................................................    38
    Prepared statement with an attachment........................   115
Harvey, Aubrey ``Bill,'' Jr.:
    Testimony....................................................    40
    Prepared statement...........................................   125
La Pier, Michael B.:
    Testimony....................................................    41
    Prepared statement...........................................   131
Mead, Hon. Kenneth M.:
    Testimony....................................................    10
    Prepared statement with an attachment........................    74

                                Appendix

Chart entitled ``Turnover Rates for Screeners at 19 Large 
  Airports, May 1998-April 1999'' (submitted by Senator Durbin)..   140
Chart entitled ``Airport Security Breaches'' (submitted by 
  Senator Durbin)................................................   141
Chart entitled ``Actions to Improve Aviation Security'' submitted 
  by Mr. Mead....................................................   142
Letter from Billie H. Vincent, President and CEO, Aerospace 
  Services International, Inc., dated September 24, 2001, with an 
  attachment.....................................................   143

Responses to Questions for the Record from Senator Akaka:
    Mr. Mead.....................................................   160
    Dr. Dillingham...............................................   163
    Mr. Baker....................................................   165

 
                       WEAK LINKS: HOW SHOULD THE
                   FEDERAL GOVERNMENT MANAGE AIRLINE
                    PASSENGER AND BAGGAGE SCREENING?

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2001

                                     U.S. Senate,  
             Committee on Governmental Affairs, and the    
        Oversight of Government Management, Restructuring  
                  and the District of Columbia Subcommittee
                                                    Washington, DC.
    The Committee and Subcommittee met, pursuant to notice, at 
2:33 p.m., in room SD-342, Dirksen Senate Office Building, Hon. 
Joseph I. Lieberman, Chairman of the Committee, and Hon. 
Richard J. Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Lieberman, Akaka, Durbin, Thompson, and 
Voinovich.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. I would like to call this meeting of the 
Governmental Affairs Committee to order, and Senator Lieberman, 
the Chairman of this Committee, will be here very shortly. I am 
going to make my opening remarks brief in the interest of time 
because we have two very good panels, and I am sure we want to 
have adequate time for questions.
    I am glad that we are co-chairing this important hearing 
today. I want to especially thank the witnesses who took a 
great deal of time and sacrifice to travel to Capitol Hill in 
an effort to help us make our airports and aviation system the 
safest in the world.
    I want to particularly commend Secretary Mineta and 
Administrator Garvey of the Federal Aviation Administration for 
their quick work on Tuesday, September 11. It is hard to 
believe it was only 2 weeks ago. It seems like so much longer. 
But they took action to halt national aviation operations and 
to institute a ground-stop for all aircraft. These prudent 
actions saved lives. They prevented tragedies and confusion.
    This Congress and this administration has to expeditiously 
develop a comprehensive plan to ensure the safety of the 
traveling public, the security of our airports, and the 
continued viability of the aviation industry. First and 
foremost, I believe the Federal Government should immediately 
take responsibility for the screening of passengers and carry-
on luggage and the control of security checkpoints at our 
Nation's airports. The United States is one of only three 
countries in the world--the other two are Canada and Bermuda--
that give the airlines the responsibility for passenger 
screening. In fact, in 100 of the 103 countries with commercial 
airports, screening is done by either the government or by the 
airport. We can no longer rely on contractors and 
subcontractors nor on employees with high turnover rates. We 
need well-trained, professional Federal Government security 
experts to be the central and first line of defense for airport 
security.
    According to the General Accounting Office report, the 
average employment turnover rate for airport screening 
personnel at 19 major airports in the United States is 126 
percent.\1\ We have put this poster up here that you can take a 
look at, if you can read numbers that small from that far away. 
The turnover rate was as high as 416 percent at St. Louis-
Lambert airfield. Other countries have registered employment 
turnover rates for airport screeners that are less than 50 
percent, including Belgium, which has a rate of 4 percent.
---------------------------------------------------------------------------
    \1\ Chart entitled ``Turnover Rates for Screeners at 19 Large 
Airports, May 1998-April 1999'' (submitted by Senator Durbin) appears 
in the Appendix on page 140.
---------------------------------------------------------------------------
    The GAO has also found in most cases a security screener's 
starting salary is a minimum wage $5.15 an hour or slightly 
higher. Other countries pay their screeners a livable wage, and 
many provide health and other benefits. It is a sad testament 
and an alarming indicator when airport parking garage 
attendants and fast-food restaurant workers make more per hour 
than those on the front lines of airline passenger safety.
    I have introduced legislation today, the Airline Passenger 
Safety Enhancement Act, that would require these airport 
security checkpoints to be staffed by Federal employees and 
better coordinate overall airport security. This bill would 
also require the FAA to immediately issue an order for 
uniformed armed law enforcement officers to monitor security 
checkpoints.
    I made this point last week in a hearing, and I would like 
to tell you two things that happened afterwards. It was a 
hearing with Secretary Mineta, and I said if we can't have 
Federal employees there in charge, can't we at least have a 
uniformed law enforcement officer on the scene right there?
    By the time I returned to my office, just a few feet away, 
I had a call from a gentleman who is going to testify today, 
Mr. Griggs from St. Louis-Lambert airport, who said it will be 
done immediately. It has been done, and I have seen it, and it 
makes a difference. I went through Baltimore to go home on 
Friday, last Friday, and saw two law enforcement officers 
there. It was a completely different environment at that 
screening checkpoint.
    I don't want to suggest that there aren't good, hard-
working, and conscientious people at these screening 
checkpoints already. But there are some, and I have seen them--
I bet you have, too--who are not paying as close attention as 
they should, who are not taking the job as seriously as we want 
them to. And I think the presence of law enforcement in some 
capacity--until we come up with an overall national plan--will 
have a dramatic and positive impact.
    As we discover more about the events of September 11, it is 
clear that we had some security breakdowns. The purpose of an 
intelligence system in our country is to avert a crisis like 
the one we endured on September 11, and the purpose of good 
security is to make sure that we have done everything 
conceivable to avert the same type of crisis.
    The General Accounting Office has determined that 
undercover agents have been able to penetrate restricted areas 
of U.S. commercial airports with counterfeit or otherwise 
invalid badges or other credentials, giving those agents the 
opportunity, if intended, to carry weapons, explosives, other 
things that are dangerous to the security of everyone.\1\
---------------------------------------------------------------------------
    \1\ Chart entitled ``Airport Security Breaches'' (submitted by 
Senator Durbin) appears in the Appendix on page 141.
---------------------------------------------------------------------------
    We will go through this in detail. It is a sobering 
accounting of efforts the General Accounting Office made last 
year which disclosed how porous the security network was at 
that time.
    I share concerns about the effectiveness of our entire 
passenger and carry-on baggage screening. I think that 
passenger screening is just the tip of the compromised airport 
security iceberg.
    I am pleased to hear that the FAA is in the process of 
performing background checks on airport employees. Double-
checking backgrounds and reissuing airport security badges is 
certainly a step in the right direction. Inspector General Mead 
will speak to that issue, I am sure.
    I don't want to overlook an issue that will be raised by 
one of our witnesses, and that is the cost of airport security, 
particularly at smaller and regional airports. A lot of my 
downstate Illinois airports support strong airport security 
procedures. But we will hear testimony today concerning one 
airport in Bloomington-Normal, Illinois, which may spend as 
much as $30,000 a month for additional security measures. 
Naturally, the administrators and managers at those airports 
are concerned about the source of funding.
    Finally, the airline industry is still reeling from this 
month's senseless attack. While carriers are doing their best 
to resume operations, while implementing stringent new security 
procedures, it is clear they face a significant economic loss, 
both short and long term. The quickest way to put passengers 
back in the seats is to ensure that every possible safety and 
security precaution is being taken at our airports and on our 
planes.
    [The prepared statement of Senator Durbin follows:]

                  PREPARED STATEMENT OF SENATOR DURBIN

    Chairman Lieberman, thank you for agreeing to co-chair this 
important hearing today. And a special thank you to our witnesses for 
taking the time to travel to Capitol Hill to work with us on ways to 
make our airports and our aviation system the safest in the world.
    I want to commend Secretary Mineta and Administrator Garvey for 
their quick work on Tuesday, September 11, to halt national aviation 
operations and to institute a ground stop for all aircraft. These 
prudent actions likely prevented further tragedy and confusion.
    This Congress and this Administration must expeditiously develop a 
cooperative, comprehensive plan to ensure the safety of the traveling 
public, the security of our airports, and the continued viability of 
our aviation industry.
    First and foremost, the Federal Government should immediately take 
responsibility for the screening of passengers and carry-on luggage and 
the control of security checkpoints at our nation's airports. The U.S. 
is one of only three countries--Canada and Bermuda are the others--that 
give the airlines the responsibility for passenger screening. In fact, 
in 100 of the 103 countries with commercial airports, screening is done 
by either the government or by the airport. We can no longer rely on 
contractors and subcontractors nor on employees with high turnover 
rates. We need well-trained, professional Federal Government security 
experts to be the central line of defense for airport security.
    According to a General Accounting Office (GAO) report, the average 
employment turnover rate for airport screening personnel at 19 major 
U.S. airports is 126 percent. The turnover rate in some cases was as 
high as 416 percent at St. Louis Lambert Field [Chart]. Other countries 
have registered employment turnover rates for airport screeners that 
are less than 50 percent, including Belgium, which has a rate of 4 
percent.
    The GAO has also found that in most cases security screeners' 
starting salary is minimum wage--$5.15/hour--or slightly higher. Other 
countries pay their screeners a livable wage and many provide health 
and other benefits. It is a sad testament and an alarming indicator 
when airport parking garage attendants and fast food restaurant workers 
make more per hour than those on the front lines of airline passenger 
safety.
    Today, I introduced legislation--the Airline Passenger Safety 
Enhancement Act of 2001--that would require these airport security 
check points to be staffed by Federal employees and better coordinate 
overall airport security. This bill would also require the FAA 
Administrator to immediately issue an order for uniformed, armed law 
enforcement officers to monitor security checkpoints. While this 
proposal generally appears to be supported by the airlines and by some 
in the administration, I think it's important for Congress to act 
swiftly to codify these important changes.
    Neither this hearing nor my legislation is intended to diminish the 
value of airport employees. I commend the thousands of hard-working, 
honest airport and airline employees who help millions of Americans 
travel safely every day. But, in light of recent events, we simply 
can't let our guard down or take airport security for granted. It's 
time to strengthen our resolve and our airport security.
    But seamless airport security is about more than just passenger 
screening, it must be comprehensive, coordinated security from the 
curbside to the cockpit.
    As we discover more about the tragic events of September 11, it's 
clear that stunning security breakdowns and breaches occurred at 
numerous levels. In fact, this week's TIME.com Website contains a story 
about the September 11 hijackings. Here's an excerpt:

          ``The new evidence is causing officials to broaden their 
        investigative and security efforts to encompass not only the 
        carry-on bag screening system but the entire aviation security 
        apparatus at U.S. airports. The new evidence raises the 
        worrisome possibility that the hijackers may have had 
        accomplices deep within the `secure' areas of airports--that 
        may include the shops and restaurants in the terminal behind 
        the metal detectors, or amongst the thousands of people who 
        work in catering, fueling or cleaning aircraft; or anyone who 
        might have access to the airplane before takeoff.'' (TIME.com 
        Website, 9/24/01)

    Investigators of the U.S. Department of Transportation's Office of 
Inspector General, in unannounced tests, have successfully gained 
access to supposedly secure areas of U.S. airports without proper 
credentials in 68 percent of those tests. Investigators were then able 
to board aircraft unchallenged 117 times.
    The GAO has determined that undercover agents have been able to 
penetrate restricted areas of U.S. commercial airports with counterfeit 
or otherwise invalid badges or other credentials, giving those agents 
the opportunity--if intended--to carry weapons, explosives, chemical/
biological agents, and other dangerous materials into those secure 
areas and onto aircraft.
    While I share concerns about the effectiveness of U.S. passenger 
and carry-on baggage screening, we would be fooling ourselves if we 
didn't devote the time and resources necessary to further restrict ramp 
and other airport operations access. Passenger screening is just the 
tip of the compromised airport security iceberg.
    I was pleased to hear that the FAA is in the process of performing 
background checks on airport employees. Double checking backgrounds and 
reissuing airport security badges is a step in the right direction. 
Inspector General Mead has noted in his written testimony that between 
February 1999 and September 14, ten security incidents occurred at 
major commercial airports ranging from selling false security badges to 
false certification of screeners to improper use of an airport badge to 
gain entry to a secured area [Chart].
    Tighter and smarter airport security also has costs. I've heard 
from a number of Downstate Illinois airports that support stronger 
airport security procedures. However, these airports will be asked to 
shoulder a heavy financial burden. For example, the Central Illinois 
Regional Airport in Bloomington-Normal will likely need to spend as 
much as $30,000 per month for additional security measures. These funds 
are above and beyond what has been budgeted and could create a 
financial hardship for the airport. The Department should explore ways 
to help smaller airports by providing resources and technical 
assistance to upgrade security and enhance passenger safety.
    With regard to on board security, I am encouraged by the recent 
announcement that Federal law enforcement officers will resume the sky 
marshal program. This gives peace of mind and real safety assurances to 
the traveling public. I am a cosponsor of Senator Hutchison's Emergency 
Aviation Security Act, which would reinstate the Federal sky marshal 
program.
    However, I believe we can do more. Clearly, we have the 
technological expertise to explore additional cockpit security, from 
video cameras to tamper proof transponders. While we pursue common-
sense solutions like stronger and more secure cockpit doors, we 
shouldn't delay developing high-tech solutions that very well may save 
lives. And when it comes to security, we shouldn't forget about Amtrak 
and the important role this passenger railroad plays in our national 
transportation system. I will continue to work with Amtrak President 
George Warrington and my colleagues to ensure that we address the 
security and infrastructure needs of the railroad.
    Finally, the airline industry is still reeling from this month's 
senseless attacks. While carriers are doing their best to resume 
operations while implementing stringent new security procedures, it's 
clear that they face a significant economic loss, both short- and long-
term. On Friday, I voted to send desperately needed economic 
assistance, in the form of grants and loans, to our nation's ailing 
airlines. I will continue to work with my Senate colleagues to keep 
this important sector of our economy flying while protecting airline 
employees from layoffs and loss of benefits.
    But the quickest way to put passengers back in the seats is to 
ensure that every possible safety and security precaution is being 
taken at our airports and on our airplanes.
    I appreciate the difficult tasks that lie ahead for the Department, 
the Congress, and our nation. Together, we can craft common-sense 
solutions that protect passengers, secure our airports, and ensure that 
our aviation system is the safest in the world.

    Senator Durbin. I want to again thank the Department of 
Transportation, the Federal Aviation Administration, and my 
colleague, the Chairman of the Committee, Senator Lieberman, 
for scheduling this hearing.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Thank you, Senator Durbin. Thanks for 
your initiative that led to the scheduling of the hearing, and 
I am really pleased that the full Committee is doing this 
alongside the Subcommittee on Oversight of Government 
Management, Restructuring, and the District of Columbia, which 
you chair.
    In light of the tragic events of September 11, the adequacy 
of airport screening procedures is of immediate, paramount, and 
very wide concern to the American people and to Members of 
Congress. I think we just have to say flat out that the system 
currently in place has failed to protect the safety of the 
American people, and it is our responsibility to find out what 
went wrong and how to correct it. This is vital from an 
economic as well as the obvious safety point of view.
    Last Friday, Congress approved a $15 billion assistance 
package for the airlines, but this is just the beginning of a 
response to the problems facing this industry that is so vital 
to the quality of our lives and the health of our economy. 
Unless we can also rebuild confidence among the American 
people, the passengers, in the safety of our skies, and in 
their safety when they enter an airport, the impact on air 
commerce, let alone the economy generally, will only continue 
to be worse and will ultimately affect every sector of our 
economy. That is how important the airline industry is.
    Since the passenger screening and carry-on baggage 
inspection program was implemented nearly 30 years ago, after 
the first wave of hijackings, the airlines, rather than the FAA 
or other government agency, as is well known, have had 
responsibility for hiring, training, and supervising the 
screener workforce. Under this system, about 18,000 screeners, 
mostly hired under contract, have been responsible for 
screening about 2 million passengers and their baggage each day 
in the United States.
    As again has been over and over said in the last 2 weeks 
and before by the gentlemen sitting before us and others, this 
screening workforce has been characterized as underpaid, 
undertrained, and underexperienced, with turnover rates that 
sometimes exceed 400 percent at some of the airports in this 
country. Training and background checks for these employees are 
minimal. Indeed, although the FAA was directed by Congress in 
1996 to develop certification regulations for screening 
companies, the agency has missed several deadlines for issuing 
rules, including a congressional deadline of last May.
    Serious shortcomings in the quality of screening equipment 
make the problem worse. Advanced detection equipment and new 
technologies that could improve screeners' performance have 
either not been made available or have been underused. These 
and other safety drawbacks have been documented over and over 
again by the General Accounting Office and by the Department of 
Transportation's Inspector General.
    In 1996, for instance, well after a Presidential commission 
formed in the wake of the 1988 Lockerbie Pan Am bombing made 
comprehensive recommendations to improve airline security, the 
GAO testified that domestic and international aviation systems 
still had ``serious vulnerabilities,'' and that typical 
screening of checked baggage offered ``little protection 
against even moderately sophisticated explosive devices.''
    Again, in May 1998, the GAO testified that nearly every 
aspect of the aviation security system could be exploited, 
could be broken through, including passenger screening, baggage 
inspection, and even controlling access to secure areas of 
airports.
    Last June, GAO reported that screeners missed as many as 20 
percent of dangerous objects at screening checkpoints during 
tests they carried out. This followed on the heels of a report 
by the DOT Inspector General that investigators had breached 
secure areas of airports in this country almost 70 percent of 
the time they were testing.
    The Inspector General has reported on aviation security 
issues no less than 20 times in the last 4 years, finding 
deficiencies in everything from the administration of security 
guard contracts to the FAA's lack of policies and procedures 
for implementing an advanced explosives detection system.
    Clearly, sadly, we had ample warning of problems with the 
way security is conducted for airlines. Our job today is to 
look again intensely at these problems and ask questions that 
can help us understand what it will take to make our skies safe 
again, to restore public confidence in the aviation system, and 
then to do exactly that.
    For example, what new procedures and technologies can be 
employed to improve screening? Why haven't these systems been 
put in place? How do we ensure that the best technology is 
deployed and developed? And how do we address privacy concerns 
that some of our citizens may have?
    Another question is whether the certification standards 
that FAA is developing for screening companies will be strong 
enough to be effective, or should the very idea of contracting 
out screening services to private companies be jettisoned in 
favor of federalizing the entire screening system, as Senator 
Hollings and others have proposed in legislation they 
introduced last Friday and which may well come before the full 
Senate next week.
    And, of course, we have got to decide where we draw the 
line between security and convenience. There is no doubt, I 
think, in anyone's mind that one of the outcomes of the 
September 11 attacks is that checking in at airports is going 
to be much more time-consuming. And it should be. Security 
should never take a back seat to convenience.
    I have got to tell you, I was on planes from here, from 
Dulles, back and forth to Connecticut and New York over the 
weekend, and I got the most thorough search of my person when I 
entered the airport at Dulles that I have ever had. It took 
more time. It took more time for everybody's search because 
everybody was being searched. But I think we all felt better 
when we got on the plane that that had happened. So that 
inconvenience made us feel safer, and I hope it continues and 
intensifies.
    Of course, it is not enough to look only at screening 
passengers. As Senator Durbin has indicated, there are so many 
people--cleaning crews, maintenance workers, caterers--who have 
unescorted access to aircraft and secure areas of the airports. 
And, again, repeated investigations by GAO and the DOT 
Inspector General have revealed vulnerabilities, weaknesses 
here, in personal background investigations, in verifying 
credentials, and in preventing unauthorized access to aircraft.
    Recent news reports indicate that the September 11 
attackers may have had accomplices who were able to position 
weapons for them on the airplanes that were used in those 
attacks. These individuals might have been caught if better 
security procedures were in place for ground crews and other 
airport employees.
    So those are some of the areas of inquiry that the 
Committee would like to get into this afternoon. I know that 
our witnesses will be able to shed light on this very pressing 
concern.
    I want to thank Senator Durbin again for proposing this 
joint hearing, for his leadership on this issue. He has had a 
great interest and background in aviation matters, and this 
Committee is more effective for having the benefit of his 
experience and his sense of purpose. And I look forward to 
working with him and other Members of the Committee as we 
continue our oversight role and as we, from that oversight 
role, contribute and cooperate with our colleagues as airport 
security--and transportation security generally--legislation 
comes to the floor of the Senate.
    We are now ready to go to the witnesses. Senator Durbin, I 
would be delighted if you would proceed.
    Senator Durbin. Thank you very much.
    Our first panel consists of three individuals who have been 
involved in this issue for quite some time and have a lot to 
present to us in terms of their findings in an official 
capacity. Monte Belger is the Acting Deputy Administrator of 
the FAA of the U.S. Department of Transportation. Thank you for 
joining us. Dr. Gerald Dillingham is the Associate Director of 
the U.S. General Accounting Office on Transportation Issues. 
And the Hon. Kenneth Mead is the Inspector General from the 
U.S. Department of Transportation.
    I thank you all for joining us. Mr. Belger, would you like 
to start?

 TESTIMONY OF MONTE R. BELGER,\1\ ACTING DEPUTY ADMINISTRATOR, 
      FEDERAL AVIATION ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Belger. Thank you, sir. I will, with your permission, 
submit my longer statement for the record and just make some 
brief opening remarks.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Belger appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    Chairman Lieberman, Chairman Durbin, I would like to begin, 
if I could, just very briefly, by offering my heartfelt 
condolences on behalf of all of the folks in the FAA to the 
families and the friends of those who were lost on September 11 
in New York City, Washington, and Pennsylvania. And I want to 
publicly thank the courageous rescue workers and the volunteers 
who have been working so long and hard in the aftermath of 
these tragedies.
    But even more so, I want to publicly just take a moment to 
thank the staff of the FAA, and particularly our air traffic 
controllers, as you referred to, Chairman Durbin. In the midst 
of the hijackings and in the midst of the chaos, our 
controllers successfully guided, working with the pilots very 
closely, moved aircraft out of the area in which these hijacked 
aircraft were operating. The national ground-stop that we put 
in place on Tuesday morning, September 11, was unprecedented in 
the history of civil aviation in our country. When the order to 
land all planes was issued, the controllers and pilots safely 
landed more than 5,000 flights in a little more than 2\1/2\ 
hours.
    In the words of one editorial writer--and there have been 
several--the controllers, the systems people, and the 
management supporting them did their jobs and brought tens of 
thousands of Americans safely back to earth. I am very proud of 
their actions. It is a singular honor for me to be associated 
with such professionals who performed such a remarkable feat.
    In the aftermath of September 11, the President called on 
America to return to normal as quickly as possible. Our focus 
in the FAA has been twofold: First, to work with airports and 
airlines to put more stringent security measures in place; and 
only after we were assured that these measures were implemented 
did we allow airports to begin operating, first to commercial 
operations and then to other segments of the air transportation 
system.
    We ordered the evacuation of every airport terminal for the 
airports to be inspected. Every aircraft was fully inspected 
before any passenger was allowed to board. And we put into 
place further security initiatives that have been sustained 
beyond the reopening of the system. Some of these initiatives 
are clearly visible to the traveling public, and others are 
less so. Some of these initiatives are: Monitoring vehicles 
near air terminals; discontinuing curbside check-in; requiring 
passengers to present their tickets or boarding passes at 
security checkpoints, and only permitting ticketed passengers 
beyond the security checkpoint; reducing access points to 
secure airports; reducing to an operational minimum the areas 
that people have to be in; increasing random security checks 
and ID checks through the entire terminal area; and as you 
mentioned also, requirements to revalidate all airport 
identification media, and also to check employees who have 
access to the secure areas against the FBI watch list.
    We have increased the number of uniformed and plainclothes 
security officers at the airports, and we are in the process of 
expanding the Federal Air Marshal Program. We are very grateful 
and have received tremendous cooperation from the Attorney 
General and the Justice Department in assisting us in getting 
access to Federal law enforcement officers who are now in 
training, and some have already started to fly as Federal Air 
Marshals in our system.
    Our second focus has been on restoring the system. We have 
done this in a very methodical and deliberate way, in close 
cooperation with the aviation community, with the law 
enforcement community, with the Department of Defense, and with 
all the airlines and airports. We are still in the process of 
bringing the aviation system back up. But we are going to be 
cautious and we are going to do it incrementally and in full 
coordination with the military.
    The coordination and the cooperation among all the parties 
involved has just been extraordinary. We will continue to work 
to restore the system to its full level of service. Security is 
now at unprecedented levels. And as we enter what is literally 
a new era of aviation, we are looking at ways to further 
improve security at our airports.
    As you know, the Secretary has created two rapid response 
teams to address airport and airline security and the very 
issues that were raised a few moments ago, as well as aircraft 
security and what we can do to further strengthen and harden 
and prevent access to the cockpit.
    The incidents on Tuesday, September 11, have caused all of 
us--airlines, airport operators, and public policymakers--to 
look very closely at the balance of responsibility for civil 
aviation security. In today's world, the threat assessment has 
changed. Security must change in response to that.
    I think the Secretary will soon provide recommendations, 
perhaps even before the October 1 date that he had established 
for the rapid response teams, recommendations to further 
improve security at our Nation's airports and on airplanes.
    In summary, we are focusing on four areas, just to repeat, 
if I could: First, to bring the air transportation system back 
to normal and restore public confidence; second, to expand the 
use of the Federal Air Marshal Program; third, to improve 
airport security, including the screening function; and, 
fourth, to improve cockpit security.
    I thank you for the opportunity to be here, and I will 
answer any questions.
    Senator Durbin. Thank you very much, Mr. Belger. Mr. Mead.

 TESTIMONY OF HON. KENNETH M. MEAD,\1\ INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Mead. I, too, want to express our sorrow to the many 
families who have lost or are missing loved ones as a result of 
the terrorist attacks of nearly 2 weeks ago, and also to 
reinforce what everybody has been saying about the President, 
Secretary Mineta, the Congress, the controllers, law 
enforcement, and rescue relief workers, and the many people 
that have pulled together in this response effort.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mead appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    I would like most of my statement to be forward looking. 
Everything everybody has said about the General Accounting 
Office and the Inspector General issuing reports and testifying 
many times on this subject is correct. As a matter of fact, it 
goes back nearly 15 years.
    I do think it is useful to overview what the different 
elements of security are that we will be talking about today. 
One, of course, is the passenger screening function that has 
received a great deal of attention. Another function is access 
to what they refer to as the sterile area or secure areas of 
the airport. The sterile area is the concourse area after you 
have been through passenger screening. The plane, too, is a 
sterile area when it is on the tarmac. A third element is 
screening checked and carry-on luggage. A fourth area is cargo 
that ends up in the cargo hold of the air plane. And the fifth 
area is the airport ID card system. I will be saying something 
briefly about each of these areas.
    I should also note that we have been involved in numerous 
criminal investigations over the past 2 or 3 years in aspects 
of aviation security, usually the falsification of airport 
identification, security screener training records and 
background checks. I will just give you two examples that I 
think illustrate a point. Most recently, a private security 
company was placed on 36 months probation and ordered to pay 
over $1 million in fines for failing to conduct background 
checks and falsifying training records on employee staffing 
security stations at a major U.S. airport. Also, I believe it 
was September 14, we arrested 12 non-U.S. citizens with INS, 
who had illegally obtained security badges necessary to gain 
admittance to secure areas at another U.S. airport.
    Chairman Lieberman. Those were employees or people just 
gaining access?
    Mr. Mead. Well, in this case they were non-U.S. citizens 
who illegally obtained security badges. But these types of 
violations actually fall into two categories. Sometimes you 
find people that have falsified their credentials to become an 
employee, but get an ID card that is legitimate in the sense 
that they are an employee. And then you have people that 
illegally obtain an airport ID card, and through the use of 
that ID card can obtain access to the secure areas of the 
airport. We have also detailed some members of the Inspector 
General's investigative staff to the Air Marshal Program.
    Before I proceed, I just want to make clear that the 
aviation security system is not foolproof. No security system 
ever will be, particularly when you add the element of people 
who are willing to die in the commission of their criminal 
schemes. And that is why I think it is important not to lose 
sight of what everybody is saying--that it is important to not 
only root the terrorism out, but also to concurrently build a 
strong aviation security system. Many of the efforts that Mr. 
Belger outlined have to do with restoring public confidence 
that has been badly damaged. I think Mr. Belger did a very good 
job of overviewing the measures, and there are more on the way.
    I think the Air Marshals' Program was very important, and 
the point you made about having law enforcement presence at the 
screening stations, I do think restores public confidence.
    I would like the remainder of my statement to focus on two 
areas. One is the governance of aviation security, how we go 
about delivering it in this country, and then I would like to 
proceed to some immediate areas I think we can consider to 
tighten up security.\1\
---------------------------------------------------------------------------
    \1\ Chart entitled ``Actions to Improve Aviation Security,'' 
submitted by Mr. Mead, appears in the Appendix on page 142.
---------------------------------------------------------------------------
    Under our current system, FAA, which is charged with 
governing aviation security and its regulation, and the 
airlines and the airports which are charged with providing the 
security, I think themselves face priorities and missions that 
are different from security. Indeed, in some cases the security 
mission conflicts with another mission, and other times I think 
economic priorities get in the way.
    So given the scope and complexity of the security challenge 
as we know it now, and the long history of problems with this 
aviation security program, I think the time has come to vest 
governance of aviation security, as well as its delivery, in 
one Federal agency or possibly one not-for-profit Federal 
corporation or some combination of the two. But that entity 
would have a singular focus of security. That would be its 
profession. That would be its mission. It would not be in 
competition with other aviation businesses. And I think that is 
one way, a very effective way, of upgrading the training and 
the standards for these screeners, and imposing some strict 
controls over the issuance of airport ID cards. That cannot be 
done overnight, so now we have to turn to the task of what do 
we do now to immediately restore confidence?
    I would like to cover several areas. One has to do with the 
explosives detection machines and the use of them to screen 
checked luggage. In the past we have not been using them. 
Taxpayers have been spending about $1 million a copy on these 
machines. They are good machines, but we are not using them. 
They are sorely underused. I think FAA is going to change that 
in the coming weeks.
    Screening checkpoint security----
    Chairman Lieberman. Forgive me. What do you mean they are 
not being used? Are they in a warehouse somewhere, or they are 
just at the location, but not being used enough?
    Mr. Mead. Actually, the situation is both. There are some 
in the warehouse that could be deployed, and there are some 
that are operational that are sorely underused. Why are they 
underused? Well, the FAA has set minimum standards for using 
the machines. The airlines can decide if they want to use them 
more. The airlines are concerned that the usage of these 
machines will result in delays. It is true it will take more 
time. These machines, Mr. Chairman, are much on the principle 
of a Cat Scan machine, but they detect explosives. They are 
greatly underused.
    I would rather not, in open session here, go into the 
numbers. I would be glad to share it with you later, but I 
think I can document the statement that they are sorely 
underused.
    Senator Durbin. I might just add there is such a machine at 
O'Hare. I was there several years ago when they bought it. I 
have seen it as I walk by many times. I do not know the 
criteria that they use to refer baggage or luggage for that 
inspection, but it is only used in specific instances. It is 
not part of the normal routine.
    Mr. Mead. I believe these machines--if you have seen them--
they are a powerful, very visible exemplar of security. A 
machine sitting idle is not a powerful exemplar of security. 
Plus, they work.
    On screening checkpoint security, I am not going to go over 
the performance. I think that has been amply demonstrated for 
the record. I would say though that it is important for FAA to 
issue the rule. The role which is about to be issued sets some 
standards on the certification of these screening companies. 
And they also need standards for measuring the screener 
performance. Now, what is acceptable? Is detecting a test 
object 6 out of 10 times, 8 out of 10, 9 out of 10 acceptable? 
And this is important because if screeners are having 
difficulty detecting objects that are pretty obvious like a 
test gun or a test grenade, it is even more difficult to detect 
a bomb, a test bomb that is.
    Airport access control. Several steps are needed here. What 
you outlined, what our work had found, and what GAO's work had 
found is accurate. I have four items on this area. The majority 
of the aircraft boardings we did would not have occurred if the 
employees had just challenged us and said, ``What are you doing 
here? You do not have any business being here.'' Just that one 
simple non-costly step.
    A second is technology. This is an area where I think FAA 
and the airports can mutually invest in cameras and anti-
piggyback devices. Piggy-backing is where an authorized 
employee goes through the door, and an unauthorized one follows 
right behind. And there are devices that prevent that--cameras 
and various technological devices.
    A third is revalidating the ID cards, which FAA has 
announced. It is very important that we do an accurate 
accounting in who is authorized to have these ID cards.
    Finally, and I think a change in legislation will be 
necessary to do this too, we need to require criminal checks on 
all employees at commercial airports.
    Chairman Lieberman. Does that happen at all now, Mr. Mead?
    Mr. Mead. Yes, sir. For new employees at what they refer to 
as the Category X airports. They are the top 20 airports. They 
are required to do this with all new employees. The requirement 
does not apply to employees that were established employees.
    For airports other than those 20, they are not required to 
do a criminal check, including on the screeners, unless certain 
triggers are met, and I think that should change. I would 
imagine that in the current environment that could be changed 
fairly quickly.
    And finally, cargo security. I am not going to go into any 
details on this here, but we have recently completed some work 
on cargo security, and we are going to be briefing the 
Secretary and Mr. Belger and some others on the results of that 
soon. Thank you.
    Chairman Lieberman. Thank you, Mr. Mead.
    Dr. Dillingham from the General Accounting Office. thank 
you.

TESTIMONY OF GERALD L. DILLINGHAM, Ph.D.,\1\ DIRECTOR, PHYSICAL 
     INFRASTRUCTURE ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Dr. Dillingham. Thank you, Chairman Lieberman and Chairman 
Durbin.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Dillingham appears in the 
Appendix on page 87.
---------------------------------------------------------------------------
    Although it is not fully known what actually occurred, or 
which of the weaknesses in our Nation's aviation security 
system contributed to the horrendous events that occurred on 
September 11, it is clear that serious weaknesses do exist and 
that their impact can be far more devastating than previously 
imagined.
    Today, I would like to offer some suggestions on what might 
be done to address some of the known system weaknesses. The 
focus of my testimony will be on preboard screening and 
securing the ramp area, reiterating some of the points that the 
IG has just made.
    First, based on the work that GAO and the IG has done for 
the Congress, I would like to say a little bit about what we do 
know about the system. We know that airport security is 
disbursed over several organizations with overlapping 
responsibilities including FAA, airports, and airlines. These 
organizations in turn may subdivide the responsibility even 
further, as is done with passenger screening. We do know that 
there may be multiple screening contractors in a single 
airport, each with perhaps different quality control standards. 
We do know that the screening contractor on duty is likely to 
be the one that submitted the lowest bid to the airline. We do 
know that as far back as the late 1970's, both FAA and the 
airlines characterized the performance or lack of performance 
of screening personnel as significant and alarming. Since that 
time the trend in screening performance has been a downward 
spiral. We also know that the extremely high turnover among 
screeners not only means that there are often few skilled and 
experienced screeners on the job, it also means that there are 
literally thousands of individuals out there that know an awful 
lot about how screening works or does not work.
    By and large, the efforts today to address this problem 
area have been largely ineffective and too slow in coming. A 
case in point is the promulgation of a rule to implement the 
provisions of the 1996 FAA Reauthorization Act that will 
establish a screening company certification program. The rule 
was scheduled for issuance later this month, more than 2\1/2\ 
years later than originally scheduled.
    We also know quite a bit about gaps in security related to 
the ramp area. We know that some airport operators do not 
properly account for IDs for employees who need to have access 
to secure areas, changes or have been terminated.
    We know that both the DOT, IG and GAO have been able to 
gain unauthorized access time and time again to the ramp and 
other secure areas. The IG investigators were able to go as far 
as to be seated on the aircraft and ready to take off. In the 
instance that was cited before, our special agents used 
counterfeit law enforcement badges and credentials to bypass 
security checkpoints at two airports, and to walk unescorted to 
the aircraft departure gates. And since those agents had been 
issued tickets and boarding passes, they could have potentially 
carried weapons, explosives or other dangerous objects onto the 
aircraft.
    Now, I would like to turn to some actions that could be 
considered to address some of what we do know about the system. 
I think it is only fair to say that FAA has begun to implement 
remedies for most of the problems that have been identified in 
access control and many other security areas. Although a 
significant amount of activity is currently underway, we 
believe that it is critical that a mechanism be put in place to 
insure that these activities are fully implemented in a timely 
fashion.
    Mr. Chairman, it may also be time to consider a different 
organizational structure for all aspects of airport security, 
or minimally, the preboarding screening operations. The 
preliminary findings of a study that we have underway for House 
Aviation Subcommittee identified four alternatives which are 
detailed in our written statement. In each alternative, FAA 
could continue to be responsible for regulating screening, 
overseeing performance and imposing penalties for poor 
performance.
    The first alternative is one in which the air carriers 
would continue to be responsible for conducting screening. This 
alternative assumes that FAA will implement the pending 
certification rule and the other elements of the Airport 
Security Improvement Act of 2000, which would enhance screener 
qualifications and training.
    A second alternative is one in which each airport authority 
would be responsible for screening.
    A third alternative is based on a new DOT agency with a 
headquarters and field structure, created to conduct a national 
screening program. It would be accountable to Congress through 
the annual appropriations and oversight process.
    And the fourth alternative is a new quasi-government 
corporation, also with a headquarters and field structure, 
created to conduct a national screening program. In this case 
Congress could use its latitude to combine government and 
private sector features as is done with Amtrak and TVA when 
they create such a corporation, and define how it will be held 
accountable and financed.
    Of course, there are pluses and minuses associated with 
each option, variations on the options, and perhaps other 
options that should be considered. We also recognize that no 
security system is 100 percent safe, but we are certain that 
there is a lot that can be done to improve the current 
situation. The GAO stands ready to continue to assist this 
Committee in this extraordinarily difficult challenge. Thank 
you.
    Senator Durbin. Thank you very much.
    I think that everyone agrees that before the flying 
public--the American passengers--are going to return to 
airplanes, they have to see something different. They have to 
walk into that airport and understand that it is not business 
as usual as it was September 10. I think some of those things 
are starting to take place, but some of them are very slow, 
some of them are not very visible.
    Mr. Belger, what do you think in terms of that visible 
change in airport security? What are the plans of the 
administration to make those visible changes that will really 
restore the confidence of the flying public?
    Mr. Belger. Well, sir, I think the most visible change 
would be more law enforcement presence. I think there are other 
visible changes just in the professional way that the screening 
check point is operated with more of a premium on thoroughness 
rather than speed. I think the attitude, the demeanor and the 
professionalism of the people doing the screening are visible 
to the traveler. I think those are things that can improve.
    Senator Durbin. How many screeners are we talking about? Do 
you have a round figure, a number that you can give us of 
people working at screening stations in airports across 
America?
    Mr. Belger. Yes, sir. The numbers that we have been able to 
gather are around 18,000 to 20,000.
    Senator Durbin. And that is just on the screening side of 
it?
    Mr. Belger. That is my understanding, yes, sir.
    Senator Durbin. That would not include baggage handlers or 
others?
    Mr. Belger. I think that is just the people on the front 
line that are visible to the public doing the screening.
    Senator Durbin. Now, would you agree that ramp security is 
also a major part of our effort?
    Mr. Belger. It might even be more important, given what 
happened on September 11. I mean we do not know what happened, 
but as was referred earlier, it is very possible that these 
items did not go through the screening check point. We do not 
know that yet, but security is so integral that you cannot just 
focus on one piece without focusing on the whole system.
    Senator Durbin. I think there was a newspaper report that 
after they did a thorough overhaul of one of the canceled 
flights, they found one of these box cutters or paper cutters 
in one of the seat cushions in one of the planes, and there is 
no telling whether a passenger brought it on board or it was 
planted at this point, but it obviously raises this question 
about ramp security and security of access to the plane.
    Now, when I asked the baggage handlers at O'Hare what is 
the starting salary, it is $8.50 an hour. I was surprised. I 
thought it would be higher since they are employees of the 
airlines, but that is the starting salary. After 5 years they 
can, I think, rise to $19 an hour which is a substantial 
improvement, but you consider what kind of employee is 
attracted to $8.50 an hour.
    Let me ask you also as well, if we are talking about ramp 
security, can you achieve ramp security without establishing a 
perimeter around the airport?
    Mr. Belger. Well, you have to have boundaries. Our whole 
airport security concept is built around the principle that the 
closer you are to the airplane, the more stringent and thorough 
the security procedures must be. As that perimeter broadens, 
the security procedures perhaps are less intensive than they 
are at the airplane. That is the principle we have used in 
airport security for 30 years. I think you have to define areas 
in which people are supposed to be and areas which they are not 
supposed to be, and you have to very clear procedures to 
determine who is supposed to be there and who is not, and what 
checks have to be done to allow people to be there.
    Senator Durbin. Even in the smallest airports in Illinois, 
it is a pretty big piece of real estate, and if you are going 
to allow someone to come across the meadow and across the 
cornfield and onto the runway and up to the plane, then you 
breach the security that you have in place around the terminal 
itself, and it strikes me that is one of the elements that is 
inescapable here, that there has to be some sort of perimeter 
security, a fence, some sort of monitoring camera, whatever it 
takes, to make sure that you know who is on that field and that 
they are supposed to be there. That is a big expense item we 
will talk about, I am sure, as we get into this as well.
    Someone mentioned the FBI watch list. Was that you, Mr. 
Belger?
    Mr. Belger. Yes.
    Senator Durbin. Did the FAA have access to the FBI watch 
list before September 11?
    Mr. Belger. We have access to the names that the FBI gives 
us of people that would be of interest to the aviation industry 
or to the carriers. We do not normally have access to the same 
watch list that the FBI might have. The FBI probably does not 
have the same larger list that INS or Customs might have. So 
FAA, which is not an intelligence organization, relies upon the 
FBI and others to tell us when there is someone that we ought 
to be cautious about or looking for.
    Senator Durbin. Attorney General Ashcroft testified this 
morning at another hearing, and we went into this with some 
questions. And it appears that there is not an integrated 
information network within our government, that if there is a 
concern about an individual being here illegally, for example, 
or being a danger to our country, that information is not 
necessarily shared with all of the appropriate law enforcement 
agencies that might come into contact with them, whether it is 
INS, the FAA, or the FBI for that matter. All of that 
information is not shared at this point, and that strikes me as 
another key element in avoiding another disaster.
    Mr. Belger. I think what you described is perhaps even an 
understatement. If we are to move, as has been suggested, to 
more Federal control of the screening and the ramp security at 
airports, I believe it will make it easier to consolidate and 
have access to the Federal databases that exist.
    Senator Durbin. Mr. Mead, and Dr. Dillingham as well, let 
me ask you about some of the options we have considered. I 
support federalizing. I believe that when I look at this and 
step back I can see that the types of federalizing we could 
discuss--but it strikes me that if we are going to have a 
national standard of national safety for every passenger, no 
matter where you are flying to and from in the United States, 
that it really is essential that we establish those standards 
here in Washington, and then work with them on a local basis to 
try to implement them. Mr. Mead, is that your feeling as well?
    Mr. Mead. I think you are absolutely on target, and I think 
those should be done expeditiously without delay. It is the 
only way in a system like ours, in contra distinction to 
Europe, where in a country like the Netherlands, it is easy to 
say the airport should run security, because you only have one 
or two airports. In this country we have at least 400 
commercial airports, and 3,000 if you expand the net to cover 
general aviation.
    So you are right that you need consistent standards, 
consistent training, and consistent certification.
    Senator Durbin. Dr. Dillingham, what is your feeling on 
that?
    Dr. Dillingham. I think we need a change in the system. We 
certainly need to find a unified way to deal with aviation 
security. I am not sure what federalization means. We have been 
talking to a number of people and they have different 
definitions of what federalization means. So we think that it 
is more important to think about some of the criteria that 
might be important in selecting an alternative, and one of the 
criteria is indeed, to bring together this fragmented system 
under one roof; second, to make sure that the coordinating body 
has the authority for effective coordination of intelligence 
that you were talking about, data and intelligence sharing; and 
that it has some accountability to the Congress, as well as to 
make sure that there is an identified funding source for it.
    So the criteria we think will be the driving force rather 
than just federalization or nationalization, but clearly, the 
elements that you mentioned are important.
    Senator Durbin. I am just going to close, because my time 
is up here, with one illustration of the challenge here when it 
comes to small-town America. One of the cities I represent in 
Illinois, Quincy, Illinois, has a good airport and four 
commercial flights a day. And the obvious question is, if there 
are to be Federal employees or people with a Federal 
responsibility at that airport, is that practical? How would it 
work? What would they do? Who would they answer to? How many 
would be necessary?
    So at a large airport, O'Hare, Midway, or St. Louis-
Lambert, you can see this in the context of thousands of people 
coming every single day, but in a small town, whether it is 
Aberdeen, South Dakota, which Senator Daschle mentioned at a 
meeting this morning, or Quincy, Illinois, it does create a 
different type of challenge and raises a question as to whether 
or not there could be a delegation, either through the airlines 
or to local law enforcement, or to some other entity we are not 
even discussing here at this moment.
    I am open to that, but I think establishing the Federal 
standard, making certain that in the large context, the large 
environment of the airports, that we have the Federal presence 
and visibility as an essential part of restoring confidence. 
Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Durbin, thanks very 
much.
    Mr. Mead, I want to just comment on something you said. You 
were very respectful in your language, but I do think you make 
an important point here as we think about what to do next in 
terms of providing more airport security, which is we have 
previously given that responsibility largely to the airlines, 
the responsibility for providing security. As you said, 
graciously, I think, but directly, that responsibility for 
security has very often yielded to other goals, including 
profitability, or customer convenience. And the result has been 
that security in the airline industry has been less than it 
should have been, which is, I gather, the major reason why you 
are now suggesting whichever form we choose, that we take the 
security function for the airline industry away from the 
industry, and put it either in the government or in some quasi-
public nonprofit organization which is solely focused on 
security, in one sense, regardless of the cost because it is 
that important. Is that correct?
    Mr. Mead. Yes, sir, it is. You know, I wonder if we all 
reflect back on the different rules in aviation security that 
have been proposed over the years, when that cost benefit 
analysis is done to support that rule and the rule is sent back 
for further cost benefit analysis, if in light of the events of 
September 11, the cost benefit analysis that we would use today 
would be materially different than the ones we have used 
heretofore.
    Chairman Lieberman. That is a very powerful point. In other 
words, none of us can sit here and say that we could have 
prevented what happened on September 11. I do think if security 
had been higher, we could have made it a lot harder to do it, 
but the normal economic calculus, when set against the vast 
damage that the attacks on September 11 did to people, people's 
lives, hard to calculate, impossible to calculate ultimately. 
But also, more subject to being calculated, the extraordinary 
adverse impact on our economy, not to mention just direct 
dollar loss. It is a good point.
    Mr. Belger, I actually want to ask you about that in terms 
of the health of the airline industry and our shared desire to 
get it going again. My impression on Sunday, when I was in 
Dulles, Newark, and JFK, was that they were a lot quieter than 
they normally are. The planes I was on were a quarter to a half 
full. Does the FAA at this point have any statistics as to what 
the rate of occupancy, if I can put it that way, or usage of 
the airline industry is now, 2 weeks after the attacks?
    Mr. Belger. We have data on the number of flights. I think 
Mr. Baker from American Airlines is on the next panel, and it 
would probably be better for him to speak for the industry on 
the load factors. We generally just get that information 
anecdotally. In terms of flights, we are operating at about 90, 
92 percent in our air traffic control centers based upon an 
average day last year. A lot of that is military operations 
right now, but the number of flights in the system for the air 
carriers is probably--and Mr. Baker could confirm this--but 
probably in the 65, 70 percent range of what they operated 
before September 11.
    Chairman Lieberman. This is the number of flights taking 
off or the extent to which they are full, the planes?
    Mr. Belger. The number of flights.
    Chairman Lieberman. Do you have any anecdotal evidence 
about the extent to which the airline seats are being taken 
now?
    Mr. Belger. I would really ask that perhaps someone from 
the airlines validate this--but I have been told that the load 
factors are in the 55, 60 percent, some lower, some higher, but 
that is kind of an average.
    Chairman Lieberman. And normal would be what?
    Mr. Belger. Oh, I think they were averaging in the high 
70's, low 80's before September 11.
    Chairman Lieberman. So we are still down. We are all 
hearing, we talked about this, our colleague, Senator Durbin 
said it, that confidence is returning but we have to do as much 
as we can visibly to get back the public's confidence and get 
the airline industry up to where it was before.
    In that regard some people have suggested that we put a 
visible or a covert marshal on every flight. And wonder whether 
you have ever calculated, thinking about what Mr. Mead just 
said about costs as compared to benefits, what that might cost 
and whether it is within the range of the feasible. It is 
certainly one very tangible way to say to people on every 
flight there is going to be a marshal armed; that is some 
reason for you to feel secure.
    Mr. Belger. Well, we are absolutely looking at that, sir. 
We have increased the size of the Federal Air Marshal Program 
significantly, but we do not, obviously, now have the resources 
to put an Air Marshal on every flight. There are about 7,000 
commercial aircraft used daily. About 35,000 to 39,000 
departures, commercial air carrier departures every day. But 
even if you just looked at the number of airplanes and assume a 
Federal Air Marshal can fly all day on one of those aircraft, 
and if you assume they work as a team of two, that is 14,000 
people. So that is absolutely an option we are looking at and 
we are looking at what we can do short of that also.
    Chairman Lieberman. I do not want to ask you the question 
because I am worried about the answer, about how many Air 
Marshals we have now, because I fear it might be lower than I 
would like anybody to think.
    Mr. Belger. We have tried not to talk about that publicly, 
but I will be glad to privately.
    Chairman Lieberman. Fine. Let me pick up on a line of 
questioning that Senator Durbin began about the sharing of 
intelligence information. Did the FAA in fact have from the FBI 
the names of those two individuals on the watch list that we 
now believe, or know, were involved in the hijackings and the 
air attacks on September 11?
    Mr. Belger. No, sir, we did not have those names.
    Chairman Lieberman. So that was--they were not conveyed for 
some reason to the FAA?
    Mr. Belger. Right.
    Chairman Lieberman. And therefore, when you said before 
that the FBI shares information with the FAA, it would not 
necessarily be in the category of those who are on a watch list 
because they may have been associated with a terrorist 
organization?
    Mr. Belger. Well, I cannot speak for the FBI, obviously, 
and perhaps this is a discussion we ought to have more 
thoroughly in a closed session, but basically the way it works 
is that the FBI provides to our intelligence unit in our 
security organization, the names of people that they have 
determined to be either a potential threat, or that might pose 
some danger if they were flying. We give those names to the 
airlines. They check those names against their reservation 
systems.
    Chairman Lieberman. Do you know what categories the FBI 
turns over to you? In other words, what would be the basis of 
them deciding they should give this to the FAA?
    Mr. Belger. Well, again, I think they would have to speak 
to the process they go through, but as I said before, the FAA 
is not an intelligence-gathering organization and we rely on--
and I do not mean that defensively.
    Chairman Lieberman. Understood.
    Mr. Belger. We work very closely with them. We have, I 
think, a very good day-to-day working relationship with the FBI 
and other intelligence agencies.
    But I think the main point here, if I could, I think the 
fundamental point is the point that Chairman Durbin raised a 
minute ago. I think there is much more we can do to provide the 
people responsible for screening and airport security with 
better access to a larger database that is now----
    Chairman Lieberman. Let me just pursue this. What do the 
airlines do now, what does the FAA do now with names that they 
get from the FBI on a watch list?
    Mr. Belger. We provide those names to the carriers in the 
form of a security directive or security alert, and the 
airlines look for those names on the----
    Chairman Lieberman. Those names on a manifest of the 
passengers on a flight. So, obviously, if the manifest did not 
reveal the identities of the individuals, they were using false 
names, there would be no match at that point.
    Mr. Belger. That is correct.
    Chairman Lieberman. Should the FAA now be looking at 
deploying technology such as fingerprinting or biometrics or 
other identification methods to identify passengers? Is that 
worth pursuing at this point?
    Mr. Belger. Absolutely it is. One of the teams that the 
Secretary set up is looking at airport security. One of the 
things they are looking at very closely is the use of biometric 
screening systems, whether it be facial recognition, 
fingerprint recognition, hand geometry recognition. San 
Francisco Airport uses, today--and it might be the only 
airport, at least the only one I am aware of--uses a hand 
geometry type of recognition system, and it appears to be 
working. I think facial recognition is also a very promising 
technology.
    Chairman Lieberman. Thank you. I appreciate it. Obviously, 
I am quite surprised that the two individuals', who were 
involved in the attacks, names were not communicated to the 
FAA, and we should ask the FBI why that did not happen but I 
appreciate that you are now very aggressively pursuing other 
means of raising the guard and protecting passengers, and I 
think the sooner we move forward on that, the better. Thank 
you.
    Senator Durbin. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. I would like to thank the Chairmen of 
the Committee and the Subcommittee for holding this hearing. I 
apologize for not being here, but I stopped into the briefing 
by the Secretary of State, and our Defense Secretary.
    The issue of airline security has been highlighted, not 
only by the tragedies that we had in New York and here in 
Washington, but it has also brought to our attention the 
enormous impact the airline industry has on our economy, and I 
think of our being so penny wise and pound foolish, and how we 
often make representations. For example, securing our airports, 
and we do not dot the i's and cross the t's. We say we are 
doing it, but in fact, we are not doing it. And I think that we 
are at the point right now where we realize how important it is 
that we have the kind of security that we need to have.
    If anyone looked at the statistics on the turnover of 
employees, you would know there had to be something wrong in 
this country. Atlanta, Hartsfield, 375 percent annual turnover 
rate. Chicago O'Hare, Senator Durbin, 200 percent in Chicago. 
Denver, another big airport, 193 percent. Houston, 237 percent. 
St. Louis-Lambert, 416 percent turnover rate. Someone should 
have read those statistics, and it should have sent a signal 
out to them that something was awfully wrong.
    We are grappling about how we are going to get our security 
job taken care of, and Dr. Dillingham, in your testimony you 
talked about a report of 102 countries with international 
airports, 100 have placed the airport security responsibility 
with the airports or the government, and the other two, Canada 
and Bermuda, have placed responsibility with the air carriers. 
The question I would like to ask you, from your observations, 
is there any difference between the security that is being 
provided in those that are run by the government and those run 
by the carriers, or is there not any perceptible difference?
    And then I would like all of you to comment on something 
that seems to be obvious, that we do have some airports in this 
world that are secure. I have been to Israel many times, and I 
can tell you there is security in Israel. I have been to 
Frankfurt. I can tell you, there is security at Frankfurt. And 
it seems to me that if we are looking around to try and figure 
out how to best deal with airport security, that my best 
judgment always has been to go someplace where you have the 
best practices and see what they do, and then figure out how 
they are getting it done, and maybe that is a good model for us 
to follow.
    So I would be interested, Dr. Dillingham, in your response 
to whatever security is different depending on who controls the 
airport? And second of all, your comments about whether or not 
all of you think that maybe what they are doing in Israel or in 
Frankfurt or some other places, where the security is more 
secure, is something we should look into. Dr. Dillingham.
    Dr. Dillingham. Yes, sir. Most countries keep very close to 
the chest their performance statistics in terms of how well the 
screeners perform. What we have found is that in most of the 
countries, the turnover rate is considerably lower, and with 
that lower turnover rate, you do get more experienced screeners 
on the job. And you have to consider the fact that in some of 
these other countries, there is a much smaller system that they 
are dealing with, and even if it is controlled by the airport, 
oftentimes it is supplemented by having visible security, or 
armed forces or armed guards around as well.
    The only information that we have about performance 
indicates where there was a test, a joint test between the 
United States and another country. The other country performed 
twice as well as we did in the screener performance area.
    Mr. Mead. I would like to make a comment about the airport 
situation overseas. It is plausible that the approach would 
work here if we had one airport, or two airports or three. In 
Europe, where you do tend to find a situation where the airport 
authority is responsible, and as Dr. Dillingham says, it is 
supplemented by the government, but there are fewer airports 
that they are responsible for. Here we have 400 different 
airports, and one of our objectives now is a consistently 
higher standard of security, no patchwork quilts. That is one 
point.
    And second, the airlines' relationships to airports in this 
country are usually quite different from those in Europe. In 
this country the airlines frequently have a vested financial 
interest in, for example, gates, terminals at the airport, 
through ownership or long-term leases. And the airlines have 
quite a bit to say about the delivery of services by that 
airport.
    Mr. Belger. I began my FAA career 30 years ago as a 
security inspector, so I have had a lot of jobs since then. I 
have seen our performance and I have seen Europe's from a 
variety of different perspectives.
    We have thought in this country for many years that the 
threat was different in other parts of the world than it was 
here. And I believe that is why we have seen, particularly in 
Europe and other parts of the world, the performance and the 
visibility of armed guards, etc., to be much higher than we 
have seen here. And in Frankfurt, for example, a lot of what 
you see as additional security is a result of requirements that 
we have put on our carriers who are flying out of those 
airports.
    We have to, in this country, I believe now, really step 
back and reassess all of the basic principles that we have used 
in determining responsibilities for aviation security. We have 
to completely reassess those. What we thought might have been 
completely unworkable 2 weeks ago are things that we have to 
really consider today.
    Senator Voinovich. Are there security screening lessons 
that you get from Europeans in terms of technology they use and 
procedures they follow that would be relevant here?
    Mr. Belger. Well, from a technology standpoint, I am pretty 
comfortable that our security folks know all the technology 
that is available, and we have the wherewithal to test it and 
use it to the extent we can.
    Procedures, I think, is where we could learn a lot. As I 
said earlier, the premium ought to be on thoroughness rather 
than speed. The premium ought to be on professional, thorough 
dedicated people, working at the screening points and 
throughout the airport environment. And I think that is where 
we could perhaps learn, Senator.
    Senator Voinovich. It is also a question of cost. If it is 
the cost to the airlines, then it affects their bottom line. In 
the event that we decide to really make a commitment to 
security--which means we are going to have to spend some 
money--that the Federal Government is going to have to spend it 
or the people who use the airlines will have to pay. The issue 
would be who ought to pay for it? Should the people that use 
airports pay for it, or should our Federal Government, or 
should there be a combination thereof? And the issue again is 
if they have it, and the money is not segregated into a pot and 
it is on their bottom line, I think the tendency will be to go 
on the cheap because it is affecting their profit situation.
    Mr. Belger. Well, the airlines have had the responsibility 
for about 30 years, and they had it actually through 
legislation which requires that the screening be done by the 
carrier or an agent of the carrier, and it has not worked to 
the satisfaction of a lot of us, so we need to do something 
different. If that means the Federal Government has to figure 
out how to pay for it, then that is what we would like to work 
with you to figure out.
    Senator Voinovich. Any of the other witnesses want to 
comment on that?
    Mr. Mead. I think your point about paying is very 
important. I know you are very familiar with the Highway Trust 
Fund and the Aviation Trust Fund, the history of those. If this 
is going to cost money, I think the American public is willing 
to pay that money, but I do think that they would expect that 
if they are going to pay it and have it denominated as a 
security fee or something along those lines, that they would be 
outraged if it went to some other purpose.
    Dr. Dillingham. Just as a sort of general overall point, 
whatever the Nation decides to do about aviation security, it 
is very important that the energy that is associated with it 
now not go away as the crisis recedes in our memory. We have 
had aviation tragedies before, certainly not to this degree, 
but not too long afterwards, the interest and the oversight 
starts to become less, and we are back in front of you again, 
telling you that things have not changed. So whatever is 
decided, there needs to be clearly much more stringent 
oversight to make sure that it happens.
    Senator Durbin. Thank you, Senator.
    It strikes me that there are actually two contacts that 
every passenger runs into when they get on an airplane in 
America related to security. We focused almost exclusively, 
when it comes to the passenger side, on one, the screening. The 
second contact comes at the ticket counter when the questions 
are asked, questions, ``Did you pack this bag and has it been 
out of your control?'' ``No.'' ``Has any stranger given you 
something to carry on the plane?'' ``No.'' I am just kind of 
curious, always have been, how many people answer yes to those 
questions. I doubt very many.
    But going to the point that Senator Voinovich made, when 
you go through an international airport like Frankfurt, you are 
engaged in a conversation with someone, maybe with more than 
one person, and it is not limited to two routine questions with 
routine answers. And it struck me that what they were looking 
for was not just the response to the questions, but my body 
language and whether I looked nervous, or whether I was 
somebody suspicious that they wanted to push along to somebody 
else to take a closer look at. I think that is a best practice, 
Senator Voinovich, that I have seen in the airports around the 
world that are very concerned about security.
    Now, I think the premise of the two questions that we ask 
at all American airports is the following: No one would 
knowingly get on a plane carrying a bomb. If I packed my own 
bag and it has been under my control, then I am not bringing 
one on and I did not take an object from someone. That premise 
exploded four times on September 11. So the question I want to 
ask you, Mr. Belger, and the other witnesses to respond to, is 
whether there is any point to continue to ask those questions? 
Should we be looking at some other kinds of questions or some 
other type of interrogation so that we really try to get to the 
heart of this question about whether someone suspicious is 
getting on an airplane?
    Mr. Belger. I definitely think we ought to rethink all of 
our procedures in light of what happened, including the asking 
of those questions. Even some of our concepts--well without 
getting into details, many of our concepts have been built upon 
the premise that an individual would not get on the airplane 
with a bomb, would not commit suicide. That is clearly, clearly 
no longer a valid principle. And when I answered the question 
earlier about what we could learn from procedures, that is what 
I was thinking about. The fact is, in many airports in the 
world, speed is second to thoroughness and doing it right.
    Senator Durbin. Mr. Mead or Dr. Dillingham, any comment 
about the interrogation at the airport?
    Mr. Mead. You probably know if you have been on an 
international flight, you also get asked a series of other 
questions. I think, as Mr. Belger points out, profiling, which 
is used as a trigger for various things in the aviation system, 
as well as that set of questions, needs to be revisited. The 
profiles were based on a certain set of premises, which are no 
longer adequate. So they need to be revisited. And I think if 
you wanted to discuss elements of profiles, that is something 
we would be doing in closed session.
    Senator Durbin. Thank you.
    Dr. Dillingham. Yes, sir. I agree with what Mr. Belger 
said, and I think that not only do we need to revise and 
enhance that procedure, the questioning procedure, more toward 
the discussion that you referred to, we have to insure that the 
people who are asking those questions are capable of more than 
accepting the answers. In other words, you have got to look for 
body language, you have got to be able to make some other 
determination besides what people say yes or no to whatever the 
conversation is.
    And I think just adding to what the IG said, we do have a 
computer profiling system in place, and I agree 100 percent we 
need to revise that, as it needs to be connected with 
additional criteria, and at the same time, perhaps linked to 
the screening function, because as it currently works, you 
could be picked as a profile person and still not be stopped at 
the screening and have your hand luggage checked because the 
profiling refers to looking at checked bags. So we have things 
in place that we can enhance and make an immediate impact at 
that level of security.
    Senator Durbin. Thank you. Senator Lieberman and then 
Senator Thompson.
    Chairman Lieberman. Thanks, Senator Durbin.
    You know, Mr. Mead, you said something I want to draw on 
because it makes the point that I think Mr. Belger made before 
about how we have to rethink airline security generally. It is 
a fact, is it not, that passengers are subjected to a higher 
level of security review going on an international flight than 
they are on a domestic flight?
    Mr. Mead. Yes.
    Chairman Lieberman. And of course, one of the painful--and 
that is based, I presume, on the previous higher tendency of 
what we used to know as hijacking or planting of bombs on a 
plane, on international flights rather than domestic ones.
    Mr. Mead. Yes.
    Chairman Lieberman. It leads me to the general point, you 
know some people have gone so far as to say, ``Well, the 
terrorists struck the airline industry now. They will not 
strike there next time.'' We do not know that, and we have to 
therefore raise our guard. I appreciate what you said, Mr. 
Belger, and I think it is important that we all focus on this, 
that as much as we have to raise our guard to protect against 
the kinds of insane acts that occurred on September 11, it is 
also critical--and this builds on the war metaphor that we are 
all using, the war against terrorism--that we not just protect 
ourselves or prepare ourselves to fight the last battle, which 
was flying planes into buildings, that we have got to think, if 
you will, like the terrorists think, and then defend ourselves 
against what would be next, because the airline security 
question basically, as the last question we talked about, has 
been geared in general terms to hijackings, and at another 
level of taking a bomb onto a plane. Nobody ever, because in 
some ways we are too sane and humane, considered the 
possibility that somebody might get on the plane and commandeer 
it and fly it into a populated building.
    Is that kind of review going on now?
    Mr. Belger. Yes, sir. I absolutely know firsthand that 
Secretary Mineta and the folks in the Department and the FAA 
are even thinking beyond aviation for the future, and I think 
we must.
    Chairman Lieberman. Into other transportation forms?
    Mr. Belger. Other transportation modes, yes, sir.
    Chairman Lieberman. Very important, because I think all of 
us are thinking that way. Ridership on trains has gone up, and 
yet people I know who get on trains, and I have been on a few 
in the last couple of weeks, have a higher level of anxiety 
there, too, than they had before, so I appreciate that.
    Mr. Mead. I think the point that you made is very important 
about the multi-modal aspect of this, and I think the solution 
on what to do with the security function ought to consider 
that, stop and think about it in a transit system, many of 
which interconnect with airports. In San Francisco the BART 
system is going to stop in front of the international terminal. 
The people that are going to the airport often take both their 
checked and carry-on luggage with them right into the terminal, 
or right into the transit station, and what is to stop them 
from leaving it there?
    Chairman Lieberman. Right.
    Mr. Mead. So I am hopeful that one of the things that comes 
out of this is a multi-modal consideration of security.
    Chairman Lieberman. Me too, I hope so.
    Just a final question, Mr. Belger. We referred to those 
regulations and rule makings that are going on regarding the 
screeners receiving more training and the contractors who hire 
them being certified or certificated. It may be too late in a 
way now. It may be that there is a rush and a movement that is 
quite strong to move toward federalizing that function and 
airport security generally. But nonetheless, that is not a 
foregone conclusion, and I wanted to ask you when you expect 
that rule will become final, and to the extent you are able, 
what changes would the rule make in the standards for selecting 
screening contractors and training, because it is possible for 
those who may be skeptical about turning this function over to 
the government, that a more demanding series of requirements 
would make that alternative worth considering.
    Mr. Belger. Right. We are ready to issue the rule. It has 
been cleared through all the processes. We have made the 
decision not to issue it right now until we complete the work 
with the Secretary on the types of recommendations he wants to 
make. And you are absolutely right, that some of the 
certification criteria that we had thought of previously in the 
rule probably ought to be stronger now, even if we continue 
with some type of non-Federal screening operation.
    The types of things that are in the rule now that you ask 
about would require the screening company to be certified by 
the FAA. They would basically have to have a security program 
along the same principles that airports and air carriers have. 
They would have to have programs approved by the FAA that would 
speak to how they would hire, train, and test their people, and 
we would set performance standards that the actual screeners 
would have to meet.
    One of the problems we had in getting this rule out sooner, 
was the fact that there was no real objective way to test the 
performance of the screeners other than to test objects that 
our inspectors use, which really is not a good real-world way 
to test. So we started with the rule making back in 1997 and 
came to the conclusion that we really did not have a good way 
to objectively measure the performance of the screeners. About 
that time we were developing what we call the threat image 
projection system, which superimposes on the x-ray machine the 
image of a real weapon. You can do that in a very sophisticated 
way with perhaps thousands of different images that could pop 
up at any time, and actually test the screener in a real-world 
environment. There are many hundreds of those systems available 
throughout the country.
    So once we thought we had developed an objective way to 
test people, then we went forward with the rule making again, 
and that is where we are now.
    Chairman Lieberman. I appreciate that. Let me just share 
this personal experience and point of view. It seems to me--
somebody mentioned before about the police presence in the 
airports now, and that is encouraging. On the other hand, the 
most encouraging and reassuring aspect of the air travel I have 
done since this occurred was not so much seeing people there 
but noting what they were doing.
    Mr. Belger. Right.
    Chairman Lieberman. And this is not rocket science, so the 
very same screeners who we have been very skeptical of, that we 
are all talking about, when I went through the screening device 
at Dulles on Sunday, they asked me and every other passenger to 
put the arms out and they put the mobile screening device over 
and picked up every credit card and every single item that even 
might have been--I had a key in one pocket, etc.
    As I said before, it was inconvenient in one sense, but 
that made me feel really comfortable as I went on. And the 
passengers, as we went in the van over to the other terminal to 
get on the plane, were talking about it, and one man told me 
that they had found a nail clipper in his pocket and took it 
from him. And that made us all more comfortable, too.
    So I do think as we go forward it is not only important who 
does this screening and other airport security, but what they 
do that will make us comfortable enough to all get back on the 
airplanes.
    Thank you very much.
    Senator Durbin. Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman.
    I was looking over this GAO report, which, if there is 
anything in here I shouldn't get into, stop me in a hurry. I 
think all of this you have put in your statement. The 
conclusion seems to be that the report consider that the 
problem with security is not as much with equipment as it is 
with personnel, and I am sure we have all talked about the fact 
that our first line of defense is in some cases a minimum wage 
employee. The FAA's testing has shown that over the years their 
ability to do their job in screening has gone downhill, 
apparently. They are not doing as good a job as they used to 
do. Is that a fair assessment?
    Dr. Dillingham. Yes, sir.
    Senator Thompson. Without getting into any more detail than 
that--and it seems to me that it is indicative of a larger 
problem that this Committee has dealt with for a long time. 
Senator Voinovich has certainly dealt with it specifically. And 
it has to do with the basic management problems that government 
has, and it specifically has to do with what we call the human 
capital problem. We are surprised now, not all of us, that we 
realize that we have people placed in strategic positions who 
are not particularly well qualified and who are not performing 
according to our level of expectation.
    The Results Act, of course, requires every department to 
come up with performance reports, and develop standards they 
are supposed to achieve. The DOT did not meet its certain 
screening goals for fiscal year 2000 and is on track not to 
meet those goals again this year. In other words, the 
Department of Transportation has been good in setting out 
appropriate goals, but the carrying out, their ability to 
achieve those goals has not been good. We are not achieving the 
goals that were set out, and it is endemic throughout 
government.
    There are places throughout government that are very 
sensitive, secure, security-conscious positions where we are 
not meeting our performance standards, our performance goals. 
And we continue to do that year after year after year after 
year. We have a high-risk list that most departments, many have 
been on it for years and years, and they come in here and we 
fuss on them a little bit, and they go and do the same thing 
next year. It is not affected by budget, it is not affected by 
any administration, it is not affected by the appropriations 
process.
    The last day I was Chairman of this Committee--I never will 
forget it. [Laughter.]
    Chairman Lieberman. Sad day for some.
    Senator Thompson. We put out a little booklet called 
``Government at the Brink,'' and it talked about some of those 
things, the mismanagement throughout government. We hear it so 
often, it rolls off our back. But we really need to take 
another look at it in terms of these national security issues 
now while we have a heightened sense of awareness. 
Specifically, the financial mismanagement, has the inability to 
incorporate information technology into the government services 
the way that they have in the private sector, the billions of 
dollars we have spent on trying to get our computers right.
    I was looking at page 16, and one of the conclusions we 
came to: The Defense Department's security clearance process 
virtually collapsed during the 1990's. The Department has a 
backlog of almost a half million security clearance 
investigations for employees. The security clearance situation 
has become a little more relevant lately. It takes well over a 
year to complete a top secret clearance. This means that vital 
positions dealing with the government's most sensitive national 
security data go unfilled, or the people in those positions 
operate with grossly outdated clearances. These problems stem 
in part from productivity problems among investigators and ill-
conceived staff cuts.
    We also talk about our difficulties with our computer 
systems. Again, brand-new relevance in light of September 11.
    On page 51, we deal with the case of the railway killer. In 
1995, the INS began to work to improve its automated systems 
which were grossly inadequate. According to the IG, the program 
areas that they set up were mismanaged from the very beginning. 
The IG reported that the INS still cannot sufficiently track 
the status of its projects to determine whether progress is 
acceptable. Also, INS staff were unable to adequately explain 
how the funds were spent.
    In addition, explain how these deficiencies led to tragic 
human consequences in the case of Rafael Menendez Ramirez, a 
Mexican national who has an extensive criminal record and is 
accused of committing several murders in the United States. In 
early 1999, Houston police contacted INS investigators several 
times seeking assistance in the search for Menendez. In June 
1999, the FBI formed a multi-agency task force in Houston to 
capture him and also placed him on a list of the ten most 
wanted.
    Unfortunately, if the INS had done its job, these events 
never would have occurred because Menendez had been apprehended 
by the Border Patrol seven times in 1998 while crossing the 
border illegally and had been enrolled in the computer system 
each time and had been returned voluntarily to Mexico each time 
without formal proceedings.
    I could go on and on and on and on. Why we are surprised 
that we have a problem with screening and airport security 
should really be what surprises us. And we really need--and 
this is not just an opportunity to talk about waste, fraud, and 
abuse again in general terms. These are security, national 
security issues.
    We have talked about our laboratories, how vulnerable our 
labs are in many different respects. Now we know about our 
airports. The whole terrorist issue now has a special relevance 
in light of September 11 with regard to immigration issues. 
That in turn has to do with our inability to manage computer 
systems or information technology. It is all part of the same 
picture and is, once again, indicative of gross mismanagement 
in the Federal Government for many, many years, in the 
financial area, information technology area, human capital 
area, and other things.
    Now we are talking about federalizing another part of our 
system. I know you probably discussed that. I won't get into 
that in any detail here. I am really not sure how I feel about 
that except to say that we must make sure we don't incorporate 
all the other Federal Government employee potential problems, 
and that is, we don't properly motivate them, we are losing the 
ones we ought to be keeping sometimes, we oftentimes keep the 
ones we ought to be losing. We have a civil service system that 
makes it so there cannot be accountability most of the time.
    All of those government management issues that we have 
swept under the rug for so long are right back on the table 
again if we are going to go down this road and consider moving 
in that direction.
    So thank you, Mr. Chairman, for having this hearing and 
allowing me to make this statement.
    Senator Durbin. Thank you, Senator Thompson. Senator 
Voinovich.
    Senator Voinovich. I would like to build on what Senator 
Thompson said. As you know, I have been working for 2 years on 
the problem of the human capital crisis and will be introducing 
legislation soon. We can talk all we want to about getting 
qualified people, but we are in deep trouble right now in the 
Federal Government. In fact, by the year 2005, we could lose 80 
percent of our Senior Executive Service. By the year 2004, we 
could lose about 55 percent of all of our employees, through 
either retirement or early retirement.
    If we are going to go out and try and recruit these people, 
we know we are going to have to pay a lot more money for them. 
By the way, you were talking about the demeanor of people. When 
you look at some of the people at the security, they give you 
absolutely no confidence. And if you have a conversation with 
them, you just wonder.
    At BWI, I had my Senate identification card. The woman 
there looks at it, the first one I went through, and it was 
fine. I go through and I was detected for having some metal. 
And I knew what it was. I have steel in my shoes. And I said, 
``I have steel in my shoes,'' and I try--that is why I bought 
the Rockports, because I don't have to worry about getting 
stopped. But I showed her my card that I was a U.S. Senator, 
and she looked at me with a blind stare like she didn't even 
know what a U.S. Senator was. And that is the kind, too often, 
of impression that you get from the people that are doing the 
security. And that in itself doesn't give one very much 
confidence. It means that you are going to have to upgrade the 
people that you hire. You are going to have to pay them a lot 
more money. You are going to have to motivate them, and you got 
to have a system in order to get them into the government.
    Of the agencies in the Federal Government, the only one 
that has flexibility right now besides the GAO and the IRS is 
the FAA. The FAA has got the flexibility to bring in people at 
different pay grades and broad-banding and a lot of the other 
things. So if we are going to pick an agency that could get 
going quickly, if we decide to federalize this thing, the 
agency that we ought to select is the FAA because they have the 
flexibility to go out and hire these people to get the job 
done.
    Senator Thompson, I am glad that you brought that up 
because we have neglected the human capital issue in this 
government for years and years, and I want to quote Jim 
Schlesinger, who testified in March before this Committee. He 
said solving the personnel problem is a precondition to solving 
all that is wrong in the U.S. national security edifice. All 
that is wrong. The precondition is the personnel problem. And 
it never really gets much attention in the Legislative Branch 
of government because I don't think that too often legislators 
appreciate how important it is that if you want to win, you 
have to have the best and the brightest. And we are not getting 
the best and the brightest in the Federal Government.
    Senator Durbin. Thank you, Senator.
    Senator Thompson. Excuse me, Mr. Chairman. With your 
indulgence for just a second on that point, I would point out 
the Hart-Rudman Commission on National Security reports that 
the United States is ``on the brink of an unprecedented crisis 
of competence in Government'' that reaches civilian and 
military personnel at all levels. That is the much touted, and 
properly so, Hart-Rudman Commission report that we have been 
talking about lately.
    Senator Durbin. Senator Lieberman.
    Chairman Lieberman. Senator Durbin, very briefly, there has 
not been much to smile about in the last couple of weeks, but 
if I may make a vain attempt by reporting this conversation--I 
was thinking about it when we were talking about the profiling 
that we expect people at the screening sections to do. I think 
we are going to find that the citizenry will be doing a lot of 
its own profiling, and it may lead to more socialization on the 
aircraft.
    One of our colleagues--Senator Breaux and I were talking 
about this. We both had the same experience in the times we 
have been on a plane since this awful incident occurred. We 
find we are turning to the people to either side of us, 
``Hello, how are you? Where are you from?'' [Laughter.]
    ``What do you do? Why are you going to where we are 
going?''
    Anyway, thank you.
    Senator Thompson. I can understand why they do it with 
Senator Breaux.
    Chairman Lieberman. No, Senator Breaux was doing it.
    Senator Thompson. Oh, I see. All right.
    Senator Durbin. I just want to comment in general. Thirteen 
years ago, when I introduced the bill banning smoking on 
airplanes, I learned something interesting about Congress. Next 
to politics, there is only one other thing that the Members of 
Congress know more about, and that is flying.
    Senator Thompson. That is true.
    Senator Durbin. And now that we talk about airports and 
airport security, each of us has probably logged as many miles 
or more than anybody in the room, and I think that is the 
reason why some of these questions are heartfelt but also get 
into detail.
    I thank this panel for your excellent presentation today. 
We really hope that we can use this information to develop some 
good legislation. Thank you very much.
    Chairman Lieberman. Thank you.
    Senator Durbin. The next panel I would like to ask to come 
forward includes Robert Baker, who is Vice Chairman of American 
Airlines; Paul Busick, President and Executive Director of 
North Carolina Global TransPark; Colonel Leonard Griggs, an old 
friend and Airport Director from Lambert-St. Louis 
International Airport; Bill Harvey, Jr., not only Trainer of 
the Screeners at Chicago O'Hare International Airport, but if I 
am not mistaken, Mr. Harvey was 1999's Screener of the Year. 
Glad to have you with us. And Michael La Pier, Executive 
Director from the Central Illinois Regional Airport.
    Once everybody is in place, we will let Mr. Baker start 
with the testimony, and we will go right down the table in the 
order you are seated.
    Thank you very much for being here.

   TESTIMONY OF ROBERT W. BAKER,\1\ VICE CHAIRMAN, AMERICAN 
                            AIRLINES

    Mr. Baker. Good afternoon, Mr. Chairman and Members of the 
Committee. Thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baker appears in the Appendix on 
page 105.
---------------------------------------------------------------------------
    Before I begin my remarks on the subject, on behalf of all 
of the American Airlines family we would certainly like to 
extend our deep sympathies and concern for the families of the 
crew members, our passengers, and certainly all of the victims 
on the ground of this terrible tragedy.
    I would also like to thank Secretary Mineta, Administrator 
Garvey, and her entire team for their responsiveness beginning 
that terrible Tuesday morning. It has been outstanding. It has 
been a real collaborative effort between the airlines and the 
FAA to find the best choices and get through this and hopefully 
get the system restored.
    Finally, the work of Congress last week and the airline 
stabilization plan is outstanding, and we thank you very much 
for your contributions to that effort. But now we must turn our 
attention to the security issues that surround our industry and 
make some decisions about changes that are in order.
    But I very much appreciate the opportunity to testify today 
regarding the Federal Government's role in addressing aircraft 
and airport security issues. September 11 has changed world 
aviation forever. We can only speculate on the precise changes 
that will result from this horrible event. However, I think 
there are two very broad directions that we must pursue 
promptly to preserve our air transportation system.
    First, we must decide on specific changes to airline and 
aviation security operations that will provide a higher level 
of deterrence and make it much more difficult for terrorists to 
repeat the horrible attacks on our country.
    Second, we must make those changes which will provide 
confidence in our aviation system to both the traveling public 
and our employees.
    If we do not restore confidence in aviation, we will not as 
airlines be able to restore operations, and the American public 
will not be willing to travel by air. This would obviously have 
profound impacts on our industry and the U.S. economy since 
there is really no practical alternative mode for most inter-
city travel in our very large geographical country.
    A week ago Sunday, Transportation Secretary Norman Mineta 
announced the formation of two rapid response task forces to 
provide recommendations in two areas: Aircraft security and 
airport security. I was honored to be asked to participate in 
this effort.
    For the last week, we have been gathering input, examining 
alternatives, and establishing priorities. We are committed to 
provide the Secretary with recommendations not later than 
October 1, and we will meet that objective. I anticipate both 
short-term and longer-term recommendations.
    Let me briefly discuss two of the subjects being dealt with 
by these rapid response task forces. Both of these projects 
enhance aviation security and also have a positive impact on 
the confidence of our employees and the traveling public.
    One of our focus areas is the hardening of the cockpit to 
prevent terrorist entry. This will likely involve modifications 
to aircraft bulkheads and doors and the adoption of procedures 
to reduce the exposure when the cockpit door must be opened in 
flight. We are processing close to 100 individual ideas and 
suggestions in this area.
    The second area that is receiving a lot of interest and 
attention is the airport security checkpoint. You often hear 
about the federalization of the checkpoint. The airlines have 
said for many years that the operation of the checkpoint should 
not be the responsibility of the airlines.
    If you look outside the United States, other countries 
typically both operate and fund all aviation security 
activities. I believe that making material changes in the 
checkpoint operation represents an important opportunity to 
both enhance security and improve public confidence.
    There is an approach which I believe makes sense and should 
be debated. I believe that there are really three security 
functions that we are going to need going forward:
    First, a high-caliber, professionally operated checkpoint 
that deters the unfavorable person, that is run professionally, 
a system that restores passenger confidence most of all;
    Second, the deployment of a sky marshal function on board 
domestic aircraft;
    Third, an ongoing surveillance and audit process to ensure 
that the security procedures and policies are adhered to by the 
airlines, the airports, and all of the various vendors that do 
business at our airports.
    These functions could be combined and performed by a 
government-owned corporation made up mostly of law enforcement 
officers.
    Now, in response to your first two inquiries regarding the 
airlines' role in screening passengers and baggage, each 
airline is required to conduct screening in accordance with the 
procedures, facilities, and equipment described in its FAA-
approved air carrier security program. The program is designed 
to prevent or deter the carriage of an explosive, incendiary, 
or a deadly or dangerous weapon on a passenger or in their 
checked or carry-on luggage.
    The specifics of the program are considered to be 
confidential by the FAA. But, generally, the program uses 
various X-ray machines, explosive trace detection, which helps 
to find visual inspections to prevent the carriage of dangerous 
weapons or devices onboard our aircraft.
    In most instances, security checkpoint functions are 
performed for the air carrier by a contract security provider 
in accordance with the air carrier standard security program 
and regulations set out by the FAA. Individual security 
screeners are hired and trained in the specifics of this 
program and the use of the security equipment by the contract 
security provider.
    The hiring standards are provided under the FAA 
regulations. Background checks of the individuals' last 10 
years of employment history are conducted. A 10-year criminal 
history check will similarly be conducted for those individuals 
with inconsistencies or gaps in their employment history.
    Local air carrier management does provide oversight of the 
security provider's compliance with these Federal requirements 
and specific security measures.
    Mr. Chairman, I have been involved in commercial aviation 
for 40 years. There has never been anything that has had more 
impact on our country, our industry, and our employees than the 
events of September 11. I do know one important thing. We can 
never have another September 11.
    I would look forward to your questions. Thank you.
    Senator Durbin. Thank you, Mr. Baker.
    Paul Busick is the President and Executive Director of the 
North Carolina Global TransPark. Thank you for being here.

   TESTIMONY OF REAL ADMIRAL PAUL E. BUSICK, USCG, RET.,\1\ 
    PRESIDENT AND EXECUTIVE DIRECTOR, NORTH CAROLINA GLOBAL 
                      TRANSPARK AUTHORITY

    Mr. Busick. Chairman Lieberman, Chairman Durbin, and 
distinguished Members of the Committee, my thoughts and prayers 
also go out to those people who have lost their loved ones to 
this terrible act of violence.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Busick with an attachment appears 
in the Appendix on page 109.
---------------------------------------------------------------------------
    I thank you for your invitation to share my perspective on 
the current aviation security process and ways to improve it. 
My position is not unique, although I think that very few share 
it. I was personally involved in the decisionmaking process 
that affected the way we provide for aviation security from 
1993 through most of 1996 as the Director of Intelligence and 
Security for the Secretary of Transportation. I am pleased to 
offer my views now in 2001 as we revisit this important issue.
    I have supplied the Committee with my written comments that 
offer specific details on the evolution of aviation security 
procedures as we know them today. I believe you will find that 
my written statement will provide the background information 
necessary to support my comments this afternoon. Therefore, I 
would like to use my time allotted to focus on those issues I 
believe need your pressing attention.
    First and foremost, I would like to make a clarifying 
statement. While I believe that it is essential that this 
Committee examine the current structure and procedures used to 
screen passengers and their belongings, I would also ask that 
Members of this Committee be wary of addressing only this one 
aspect of the aviation security system. At this time we are not 
privy to all of the details of how this heinous act of 
September 11 was carried out.
    While passenger screening may have played a significant 
role that day, it may have been only one element in a series of 
failures in the system. It is important that we recognize that 
a multi-billion-dollar intelligence effort did not predict 
these events, that the FAA had no regulation in place 
preventing persons from carrying the types of weapons 
described. The airlines train their personnel to respond to 
threat vectors of a wholly different nature. We have an 
obligation to absolutely, positively get the program for 
security in the air travel system right this time. Therefore, 
it is essential that we look at the system as a whole and focus 
our efforts on improvements and not on recriminations.
    Each time we have had a crisis in our national aviation 
system, a task force or commission is formed, studies are 
conducted, recommendations are filed, the status quo shifts 
slightly higher, until we face the next crisis. We can't let 
that happen this time. It is time to make drastic changes in 
the system in place. It is time that we ensure that support 
necessary to carry out these changes does not wane when the 
initial shock fades.
    Given that the current approach has proven itself incapable 
of providing a high-quality system, federalizing seems to me to 
be the next best choice. But if we simply federalize without 
the establishment of thorough training programs, the deployment 
of high-quality equipment, standardized and regular 
measurements of performance, and decent pay and benefits, one 
can certainly predict failure of the new system just as well.
    If we simply make a change that has the Federal Government 
contracting out to the lowest bidder and make no qualitative 
improvements, all we have done is change the name of the 
employer.
    There is no panacea to this. Screening is hard, repetitive 
work. It will require significant efforts in human factor 
analysis and human-machine engineering to make it work well.
    A key issue is the professionalism of the personnel tasked 
with the responsibility to provide our first line of defense. 
These hard-working individuals have been asked to achieve the 
improbable and are sometimes vilified for their failure to do 
so. Minimal training, varied levels of equipment, low wages, 
long hours, constant criticism.
    This is the life of the aviation security screener. The 
White House Commission of Aviation Safety and Security 
recognize the value of these individuals and called for a 
program to certify and license security screeners based on 
their proficiency. Wages and benefits would rise accordingly, 
as would the overall quality of the screening process. The 
commissioners believe that such a program would encourage 
people to seek out these positions as professional trades.
    The recommendations were not carried out. The regulation to 
address this issue is still in draft and, in fact, does not 
provide for certification of individuals. Rather, it calls for 
certification of the companies who provide these services. 
Screeners are not recognized for proficiency; rather, they 
receive bonuses for longevity. I will expand on these themes 
for the duration of my allotted time.
    Federalization, done properly, could address several other 
flaws inherent in the current system. The Administrative 
Rulemaking Procedure Act is one of the foremost reasons why 
good ideas don't find their way to implementation. The 
rulemaking process is slow and rife with compromise. In my 
opinion, the industry has taken advantage of their legal rights 
under the Rulemaking Procedure Act to question, delay, and 
dilute rules intended to improve aviation security. When the 
distinguished Members of this body pass a law telling the FAA 
to institute a new security procedure, FAA is required to 
embark upon the odyssey that is rulemaking. I can't imagine 
police or military planners responsible for security engaging 
with others in such a manner to implement necessary security 
measures.
    Federalizing the security screening process would eliminate 
the need to get involved in a lengthy debate over the value or 
cost of a specific measure. Costs associated with them would 
also be looked at differently. If they are deemed to be 
appropriate and necessary, they can be implemented.
    While the question of who carries out this important task 
may be less important than how it is done, the right agency 
with appropriate authorities could make a difference. While I 
am here today to address the pressing need of improved aviation 
security, I also foresee the necessity of addressing terrorism 
against all of our transportation modes. An organization 
dedicated to transportation security within DOT with limited 
law enforcement responsibilities and direct access to 
information from intelligence agencies regarding all modes of 
transportation is, in my opinion, the ideal entity to undertake 
this task for several reasons.
    Intelligence received by this agency can be disseminated 
throughout the transportation system. A national cadre of 
professional security personnel under the DOT umbrella could be 
dispatched to locations of interest and heightened concern in 
direct response to intelligence. R&D efforts could be directed 
by this office in response to information not only on new 
threats and methods, but also in response to experience gained 
from the utilization of equipment in the real world.
    Administrators from each of the modes of transportation 
would play a vital role in determining specific procedures to 
be undertaken at transportation facilities. They really are the 
experts in their field within government and offer valuable 
insight into daily operations. Their direct functional 
knowledge applied in conjunction with resources of the 
Department's Office of Intelligence and Security creates a 
natural partnership between intelligence, operations, and 
oversight.
    Even with a single governing entity in place, it is hard to 
determine the competency of an individual screener without 
comprehensive testing procedures. The currently approved 
testing devices are standardized, rudimentary, and not at all 
effective in testing security under realistic conditions. In 
addition, with an average of at least 8 percent turnover rate 
per month, it is difficult to determine if training methods are 
at all effective. FAA Red Team, DOT Inspector General, and GAO 
methods appear to be more realistic. Low detection rates for 
their tests reflect that. The electronic threat insertion 
method would be a useful tool for teaching and testing, but 
there are too few deployed at this time to be sure.
    Test procedures should be realistic, consistent, and 
objective to the degree possible. National results should be 
compiled as often as practical and compared to address the 
question of efficacy of training and equipment. A regular and 
comprehensive review of test results would allow for rapid 
modification in training methods, cycles, and curriculum.
    Such a review would also indicate which types of equipment 
are able to provide the image clarity necessary to determine if 
there is a threat object present and which are not. Armed with 
this information, the Secretary could amend procurement orders 
to purchase only the equipment proven to be effective via 
rigorous testing.
    Efforts to encourage competition among equipment providers 
must take place within a framework that recognizes that 
technical standards and the need for rapid deployment of 
properly certified equipment will not be abandoned merely to 
create competitive markets. The most important aspect of the 
free enterprise system is that success and accomplishments are 
rewarded by market preference. The unintended consequence of 
last year's congressional direction to split funding between a 
fully certified system and an EDS system that was not fully 
field vetted led simply to significant slowdowns in deployment 
of certified EDS systems without any benefit to either aviation 
security or the competitive marketplace.
    Other nations have found greater success in screening 
performance via the use of a single entity governing the 
screening process. We have already talked about the GAO's look 
at foreign governments and those were mostly European. In 
short, the findings of the report show that other nations have 
instituted programs that require much more extensive 
qualifications and training, higher pay, much more stringent 
checkpoint operations, and the assumption of overall 
responsibility for the screening process by a single government 
entity.
    It is interesting to note that France requires screeners to 
be citizens of an EU nation. The reasoning presented in the 
report is the cooperative nature of the EU law enforcement 
agencies. France believes that by requiring EU citizenship, 
they may conduct a much more comprehensive background check on 
the individuals by accessing criminal information data sources 
from all European Union nations.
    I think the United States should take its lead from France 
and coordinate our efforts with other national governments to 
compile similar information and vet security personnel against 
these data sources as well.
    No matter which entity assumes these tremendous 
responsibilities, the responsibility for funding an ongoing, 
dedicated effort lies with the U.S. Congress. There must be a 
dedicated funding stream to support our Nation's security in 
all its many facets. I believe both appropriated funds and a 
dedicated transportation security user fee are necessary steps. 
I also recognize that you as Members of Congress are elected to 
represent all of the people, not just those who are using the 
transportation system today.
    Providing for transportation security is providing for 
national security. The terrorists who committed this crime 
against the United States were well aware of the impact it 
would have on our economy as a whole. And, therefore, we as a 
Nation must support the ongoing effort to ensure our national 
security.
    In conclusion, I would like to make a short personal 
statement. I consider myself genuinely fortunate to have served 
as the Director of the Office of Intelligence and Security for 
a whole lot of reasons. It was good, rewarding work, work that 
needed to be done. But the primary reason was that people in 
the industry with whom I was privileged to work, the 
professional, dedicated, honorable individuals on the front 
lines of aviation security, deserve our respect and gratitude. 
These individuals struggle every day to make our system safe 
and secure. They often have limited information and resources, 
conflicting directives, and suffer the criticism of 20/20 
hindsight following every incident.
    I would ask you to join me in ending the process of 
selecting who is to blame and instead appreciate the efforts of 
the hard-working individuals who have accepted these awesome 
responsibilities as their own, people like Al Grazier of the 
Port Authority of New York and New Jersey; Joe Lawless of Mass. 
Port; Richard Kunicki in Chicago; Alvie Dotson at Dallas-Fort 
Worth; Al Lomax of Kansas City; Jim Welna, Minneapolis; Richard 
Davis, United Airlines; and Matt Vaughn of the United Parcel 
Service. Each of these individuals stands out in my mind as a 
stellar example of professionalism in aviation security. I 
applaud their effort, and I look forward to working with them 
and with you to craft a more secure future for our national 
aviation system. Thank you.
    Senator Durbin. Thank you very much. Mr. Griggs.

 TESTIMONY OF LEONARD L. GRIGGS, JR.,\1\ DIRECTOR OF AIRPORTS-
   CITY OF ST. LOUIS, LAMBERT-ST. LOUIS INTERNATIONAL AIRPORT

    Mr. Griggs. Mr. Chairman and Members of the Committee, I am 
Leonard Griggs, Director of Airports for the city of St. Louis. 
I would also like to express my profound sympathy and sorrow to 
all those families and friends of those people who lost their 
lives.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Griggs with an attachment appears 
in the Appendix on page 115.
---------------------------------------------------------------------------
    As you well know, we served over 31 million passengers last 
year and are well on the road to becoming another major hub for 
American Airlines as they take over from TWA.
    I appreciate being invited to share Lambert Airport and 
Mayor Slay's views on how this Nation's system can be improved 
so that our citizens will have renewed confidence that our 
skies are safe and that the Federal Government is adequately 
protecting airports and aircraft operations from the full 
spectrum of possible terrorist activities. I am pleased that 
the focus of this hearing is on airport screeners since they 
are a key element in the defense against terrorism.
    In my 5 minutes, I plan to address the following points 
which are expanded upon in my written statement: First is 
airport police presence at airport screening checkpoints; 
expansion of the Federal Air Marshal Program and security and 
sanctity of the cockpit; timely sharing of intelligence by 
Federal officials with local airports' police; federalizing the 
passenger screening; improved cargo and baggage screening; 
reduced carry-on baggage; assistance with unfunded Federal 
mandates and other costs; and the possibility of reopening 
Reagan Washington National Airport.
    Security measures at Lambert Airport have been noticeably 
increased in response to the FAA directives over the past 2 
weeks. Law enforcement's presence has been expanded with 
Lambert Airport police officers being stationed in patrols at 
all three of the passenger screening points within the 
terminal. I would like to thank Senator Durbin for this 
suggestion--where it came from--and we have found that an 
increased law enforcement presence reinforces the seriousness 
of passenger screening and communicates to screeners how 
important their functions are.
    I have personally talked to the owners and managers of both 
of the security companies on the need for professional conduct 
and appearance, and they have responded.
    I have provided a complete listing of increased security 
measures that have been implemented at Lambert Airport. Other 
security measures not publicly discussed or put in here have 
also been put into effect in the operation of our plan.
    As a result, the airport security at Lambert Airport is 
very high. I was comfortable flying out of Lambert Airport 
yesterday and believe that other travelers should feel safe 
resuming their flights through our airport.
    The city of St. Louis recommends additional actions to 
further improve airport security and airline security. As for 
aircraft security, St. Louis supports a substantial expansion 
of the Federal Air Marshal Program for onboard protection and 
improved protection of the cockpit in airline security.
    In addition, the following is a partial listing of 
additional security measures that we and I believe the DOT and 
the Congress should consider to further improve the on-airport 
portion of security:
    First, better intelligence sharing by the Federal 
Government. We have all read in the press accounts of how 
information about some of the September 11 terrorists was never 
passed on to local law enforcement or airport police. Federal 
intelligence agencies do not timely share their information 
with the FAA's Civil Aviation Security Office and, in turn, 
with the local airport law enforcement. Some have urged that 
expanded Federal intelligence efforts must be approved and 
funded by Congress and the Executive Branch. Having all Federal 
intelligence and enforcement agencies share the same computer 
database would be very beneficial. In our view, it is important 
that relevant, timely information must be shared with us. 
Airport security is the last ground of defense to forestall 
terrorism against civil aviation, but that defense must be 
based on timely and adequate information.
    Second, federalize passenger screening. I believe, and a 
majority of my colleagues believe, that the passenger screening 
function should be placed under control of a Federal agency, 
probably within the U.S. Department of Transportation, rather 
than being delegated as now to the private airlines. However, 
some large airports have concerns that federalization could 
result in inadequate manpower levels because of budgets that 
have been starved over time. This has often been the case with 
inspection staffing at both Customs and INS functions 
throughout this country.
    The federalized passenger screening program could be 
another branch of the Federal Air Marshal Program and could be 
very appropriate under the Federal Administrator of the FAA. 
Federalizing the passenger screening function should make it 
easier to pass intelligence to law enforcement agencies that 
back up the passenger screening function at U.S. airports.
    Next, restriction on carry-on baggage. Until a Federal 
agency has taken over the passenger screening function, it 
would be very advisable to limit carry-on bags to one per 
passenger, with some exceptions, for example, people with small 
babies carrying diaper bags and that kind of thing, which would 
help reduce the screener workload.
    Improved baggage, cargo, and mail screening. You have heard 
this before. Congress should assure that adequate numbers of 
explosive detection systems devices and other current 
technology that are available for the inspection of 
unaccompanied baggage, cargo, and mail packages be made 
available.
    Congress should help fund the new security mandates imposed 
by the FAA on local sponsors. Lambert Airport is spending 
millions of dollars of unbudgeted funds to implement the 
increased FAA security to the tune of--for example, we are 
spending $72,000 a week for additional security members.
    We believe that unfunded mandates should be covered by 
general Federal funds or through expanded authorization from 
the AIP or the Passenger Facility Charges.
    Another crisis we are facing is the cancellation and/or 
tripling of premiums in our liability insurance, the same as 
the airlines are facing. This is something that must be 
addressed.
    Finally, Mr. Chairman, I feel it is absolutely critical to 
reopen Reagan National Airport. To paraphrase Mayor Tony 
Williams, Reagan National Airport is the first door to 
Washington, is a vital symbol, and, therefore, keeping it 
closed tells the terrorists that they have won. I am confident 
security measures can be put in place to make Reagan National 
Airport safe. As a matter of fact, if we do not, there is one 
major airline which has been already threatened and the 
possibility of severe financial damage to three of our major 
airports.
    Again, Mr. Chairman, my mayor and I appreciate the 
opportunity to express my views and recommendations on this 
most important topic of aviation security. I have been in this 
industry for 25 years, and September 11 can never be allowed to 
be repeated.
    Thank you.
    Chairman Lieberman. Thanks very much, Mr. Griggs, for that 
excellent testimony.
    Mr. Harvey, a pleasure to have you here.

     TESTIMONY OF AUBREY ``BILL'' HARVEY, JR.,\1\ TRAINING 
   SUPERVISOR FOR ARGENBRIGHT SECURITY, O'HARE INTERNATIONAL 
                            AIRPORT

    Mr. Harvey. Good afternoon, Senator Lieberman. I would like 
to express my deepest sympathies to all those who lost someone 
during the tragic events of 9/11/2001.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Harvey appears in the Appendix on 
page 125.
---------------------------------------------------------------------------
    Chairman Lieberman. Mr. Harvey, come forward a little bit. 
Those mikes are very directional.
    Mr. Harvey. My name is Aubrey Harvey, and I am a checkpoint 
security supervisor for Argenbright Security at O'Hare 
International Airport. I appreciate the opportunity to testify 
before this Committee and give you the perspective of the men 
and women who work as security checkpoint screeners at our 
Nation's airports.
    Those of us who work hard day in and day out to protect the 
flying public--successfully, I might add--have found the news 
reports pointing the finger of blame at screener for the events 
of September 11 very disheartening. From all indications, there 
is no evidence that any activity by a checkpoint screener--all 
of whom were following FAA regulations correctly--contributed 
to this horrible tragedy.
    I want to thank you, Senator Durbin, and the other Members 
of this Committee for taking the perspective of the security 
screener in mind as Congress debates changes to the current 
system. As an Air Force veteran who served with the 19th 
Tactical Air Strike Squadron in Vietnam, I understand and 
appreciate the role that security and national security plays 
in our American transportation system. I want to assure you 
that those of us working the checkpoints take this issue of 
national security very seriously as well.
    Let me give you a little bit of background about myself. I 
was hired as a pre-departure screener for Argenbright in 
November 1996. Given my interest in taking on more 
responsibility, I was promoted to a checkpoint security 
supervisor. In 1999, I became certified as a trainer and 
advanced equipment trainer and currently train new members of 
the O'Hare screening team. Training new members involves both 
classroom instruction and on-the-job training. The latter is 
particularly important, as human interaction with passengers 
and attention to behavior is vital.
    In 1999, I was selected as the FAA's Screener of the Year. 
Candidates are chosen based on superior performances under the 
difficult circumstances that can present themselves at an 
airport checkpoint. My nomination was the result of two events 
that occurred at O'Hare. The first occurred in December 1998 
when a passenger attempted to board an aircraft with a 12-gauge 
shotgun. We apprehended the weapon and the passenger was 
arrested. In August 1999, a passenger broke through the 
security checkpoint. I followed and contained the passenger 
until a police officer made the arrest.
    The activities of the individual screeners are important, 
but new security measures and technology are also critical. 
Since my time at Argenbright, I have seen the screening 
technology vastly improve. Training procedures have become more 
sophisticated, using computer programs such as the TIP program 
and Safe Passage program to test screeners on the job. 
Screeners are also required to have additional training yearly 
to update them on the newest technologies and procedural 
changes.
    We are also making ongoing efforts to attract, retain, and 
reward qualified employees. Since I began at Argenbright, I 
have received two promotions and my wages have nearly tripled.
    The events of September 11, 2001, were horrific and cruel. 
Yet I believe that security screeners at the affected airports 
and even those that were not affected acted with dispatch on 
that day and in the days since to protect the flying public. As 
a trainer and a checkpoint security supervisor, I know the 
difficulties and challenges of the job. I also know the value 
of following procedures and the importance of training. As an 
individual employee of Argenbright Security, I have and will 
continue to work with the Federal authorities to improve 
screening, security, and the safety of the flying public.
    Thank you very much, Senator.
    Chairman Lieberman. Thank you, Mr. Harvey. I am delighted 
you are here and gave us that personal and unique perspective.
    Mr. La Pier.

TESTIMONY OF MICHAEL B. LA PIER, A.A.E.,\1\ EXECUTIVE DIRECTOR, 
               CENTRAL ILLINOIS REGIONAL AIRPORT

    Mr. La Pier. Good afternoon, Mr. Chairman, Members of the 
Committee and staff. I would like to thank the Chair for the 
opportunity to be here this afternoon to appear before you to 
give a perspective of a small airport on the current situation 
regarding civil aviation security in the United States today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. La Pier appears in the Appendix 
on page 131.
---------------------------------------------------------------------------
    I would also like to thank the senior Senator from the 
State of Illinois, Senator Durbin, for inviting me to be here 
this afternoon, but most particularly for his unyielding 
leadership and strong support of aviation issues in the State 
of Illinois.
    I should tell you this is my first opportunity to testify 
before a Congressional or a Senate committee. It is an 
opportunity that I welcome. It is an experience that I will 
value forever as an American.
    In the words of a song made popular against recently, ``In 
a New York minute, everything can change.'' This is eerily true 
of the world of civil aviation security as a result of the 
tragic actions of September 11. The acts of aviation piracy and 
subsequent terrorism have clearly changed the face of the 
industry that the Central Illinois Regional Airport is a part 
of forever. We recognize that change, Mr. Chairman, and, 
frankly, we welcome it. We clearly don't welcome how the change 
is being brought about, the reasons for these changes, but we 
fully support the efforts, all efforts to strengthen civil 
aviation security in our country.
    Allow me for a moment to introduce you to Central Illinois 
Regional Airport. We serve a region of about 1.2 million people 
from Bloomington-Normal, Illinois. The airport has seen 
unprecedented growth in the past few years, particularly in 
passenger traffic but also in commercial flights.
    Since 1987, passenger traffic has grown from just over 
80,000 passengers annually to nearly 500,000 last year. At the 
same time, the number of scheduled daily departures has 
increased from 12 in 1987 to almost 50--or to over 50 last 
year. In fact, the number of air carriers serving the airport 
has grown from two in 1987 to its current level of five. This 
growth is the direct result of the robust economy in the 
region, and particularly the expanded service opportunities by 
the airlines. I guess you could call us a true success story in 
the deregulation era.
    In terms of passenger traffic, we are proud that we were 
recognized as the fastest-growing non-hub airport in the United 
States in 1997, and over the last 5 years, we have been the 
second fastest-growing airport in the Nation regardless of size 
of airport.
    Prior to the horror of September 11, Central Illinois 
Regional Airport stood in full compliance with all applicable 
security directives and regulations put forward by the Federal 
Aviation Administration. I am also pleased to report that we 
achieved compliance, full compliance, with all new directives 
issued by FAA after September 11 within 24 hours. We believe 
that made us one of the first airports in the Great Lakes 
region to achieve that status.
    If you would allow me a personal moment here, I brought 
with me this afternoon my staff, members of my staff, the folks 
that made it possible for us to achieve that status. They are 
Don Schneider, the operations manager and principal security 
officer of the Airport Authority; Fran Streebing, who is 
director of marketing and public relations; and Chad Farashon, 
my administration manager and finance manager. They are in the 
audience with me this afternoon.
    It is important to note that the full compliance that we 
achieved does not come without a cost. Our security budget for 
this year totals $125,000. The increased security dictated by 
September 11 actions will cost us approximately $30,000 a month 
or nearly triple our budget. This expenditure, if annualized, 
would represent 20 percent of our $2.1 million annual operating 
budget. This, Mr. Chairman, has the potential to become a 
significant financial burden.
    As we have talked about this afternoon and as the Members 
of this Committee are aware, there are two separate but 
intertwined areas of aviation security at our Nation's airports 
today. First, the airlines are tasked with a variety of 
different responsibilities and regulations under FAR Part 108. 
It is their responsibility to provide for trained, qualified 
security personnel at all airport checkpoints in the United 
States. Currently, in most, if not all, of those situations, 
those services are provided by one or several private 
companies.
    Airport operators, on the other hand, support passenger 
security checkpoint operations with law enforcement officers. 
These officers are not trained to operate the checkpoint but 
are in place to support its operators if necessary.
    In the case of Central Illinois Regional Airport, we meet 
the obligation that is put upon us by FAA through a series of 
alarms and a 5-minute response from the City of Bloomington 
Police Department.
    I don't mean to be critical here of the current operations 
of the security checkpoints in the United States. I believe 
that the vast majority of the folks that operate those 
checkpoints are, in fact, doing the best job they can. It is 
important to note, however, that they are not members of the 
law enforcement community.
    Whether we like it or not, the events of September 11 have 
caused a change in the rules of the game. I believe that these 
changes must be met with something other than simply regulatory 
changes and adjustments. We must meet these changes with 
significant actions that will again allow us to capture control 
of the safety of our skies.
    There has been a great deal of discussion here this 
afternoon and over the past couple of days about federalization 
of checkpoints. We strongly support looking into that issue 
very in depth. We believe that a parallel may exist in the 
Coast Guard.
    Regardless of whoever is tasked with this responsibility, 
we believe that they must have access to all pertinent 
information and intelligence so that they can become a more 
proactive rather than reactive organization.
    Simply put, the rules of the game have changed, and I 
believe that they are going to continue to change as we go 
forward. We must have all necessary information, particularly 
when it comes to communication, for us to be able to respond 
effectively and proactively.
    The second area of responsibility is obviously airport 
security. That is one that we are very familiar with. In simple 
terms, we are responsible for the security of the airport 
facility itself and the environment within which our airlines 
operate.
    Under the current regulations, the extent of airport 
security required varies depending upon the level of activity. 
The level required varies from complete video monitoring and 
law enforcement patrols at our Nation's busiest airports to 
much less stringent but nonetheless effective security posture 
at some of our smaller airports.
    When I think back to the events of September 11, and 
particularly those events as they occurred at Central Illinois 
Regional Airport, the one thing that stands out in my mind was 
the lack of information that we received. I fully realize that 
the efforts of those in charge were probably correctly directed 
at larger airports, more traffic-intensive airports than 
Central Illinois Regional Airport. But I would maintain that 
the threats at airports the size of Central Illinois Regional 
Airport are no less real.
    When we go back to the Gulf War, airports and the FAA 
worked together to craft a plan to implement levels of security 
based upon perceived threat. Without going into specific 
details, all airports developed these guidelines under the 
direction of FAA, and there were four levels of security that 
were developed. We were all to implement those levels of 
security and those actions of security at the direction of FAA.
    At the time this action seemed to be reactive, but it 
certainly could have put us into a proactive position. 
Unfortunately, the one component that failed in that system on 
September 11 was, again, communication. We did not receive 
communication from FAA regarding increased levels of security 
until the next day.
    I don't wish to be critical of the individuals at FAA that 
were responsible for communication or for enhanced security at 
our airports. I believe they do a wonderful job of regulating 
security at our Nation's airports. We must, however, learn from 
the events and practice that old saying, ``An ounce of 
prevention is worth a pound of cure.''
    I believe the agency in charge of aviation security must be 
provided with all of the tools necessary to allow us to be 
proactive, and the communication that has to occur must involve 
all the partners in aviation.
    I would tell you that airports and airlines are two 
different types of operations. The airlines are typically and 
are set up to be for-profit enterprises. Airports are, in fact, 
on the main, government-sponsored agencies.
    In our case, we are 38 percent tax dependent. We receive 38 
percent of our operating budget from property taxes. Recently 
the financial markets acknowledged the gravity of the situation 
regarding aviation and airports and have now placed all North 
American airports on credit watch. That means it is going to be 
more difficult for us to raise capital to accomplish what will 
need to be done to protect and to ensure security at our 
airport and at every airport in the United States.
    We would ask Congress to look very closely at the statement 
that Standard and Poor's made in their recent announcement in 
which they said immediate and broad authority should be granted 
to FAA to reimburse airports for extraordinary costs for 
security and to maintain financial viability.
    We looked at our airport to determine what it was that we 
thought we might need to put ourselves in a posture that would 
be similar to what Colonel Griggs would experience in St. 
Louis. Simply put, a one-time investment of $1.8 million and an 
annual investment of $500,000 is what our quick analysis 
determined. That is a tough pill for a small airport to 
swallow.
    Mr. Chairman and Members of the Committee, my time is up. I 
would like to thank you for the opportunity to be here this 
afternoon not only personally but professionally as well. Often 
small airports are left out of discussions of this nature, and 
it is comforting to know that in this case we have had the 
opportunity to share them with you. Thank you.
    Senator Durbin. Thank you very much, Mr. La Pier.
    I apologize for stepping out. I mentioned to Chairman 
Lieberman that, coincidentally, the father of one of the 
victims of Flight 77 was in my office, and I obviously left to 
speak to him. But it was a grim reminder that this inquiry at 
this Committee is certainly not routine. It is a reflection of 
the solemn duty and responsibility all of us have to do what we 
can to make sure this never happen again.
    Mr. Baker, since September 11, whatever you can tell us, 
what has American Airlines done to do things differently in 
terms of security? And could you address the issue we raised 
earlier about the visible changes which we think the flying 
public is looking for?
    Mr. Baker. Well, there are a lot of things that I probably 
shouldn't discuss, but let me----
    Senator Durbin. Understood.
    Mr. Baker [continuing]. Assure you that there has been 
literally an ongoing, almost 24 hours a day, back-and-forth 
with the FAA security staff and the airlines collectively, 
making small and very large changes to the way we operate.
    We have completely taken certain parts of the exposure out 
of play, for instance, by removing portions of the cargo 
business. They are no longer flying on our airplanes. Not known 
to the general public but, nevertheless, that has happened.
    A lot more activity and requirements in and around the 
ticket counters and the checkpoints. We have closed all the 
curbside check-in. Checking of IDs in multiple locations, 
accelerating the random wanding of passengers at checkpoints 
and at gates. A very complicated procedure to deal with the 
nameless that you have had some discussion about, and those 
lists today are nearing a thousand individuals.
    Senator Durbin. Were those available before?
    Mr. Baker. No.
    Senator Durbin. Did you receive those names?
    Mr. Baker. No, sir. This is all new territory for us.
    Senator Durbin. Let me ask you about one particular area 
that you have spoken about, and you are in a special position 
here because of your being chosen to be part of this commission 
by the Secretary. You have talked about the hardening of the 
cockpit doors, and that seems so important and so clearly 
needed. Are you considering other changes within the airplane? 
One in particular that I have been looking at--and it is 
controversial with people who have strong feelings on it--and 
that is the whole question of video cameras in the airplane. 
After the Egypt air crash, we never knew what happened, and the 
technology we have in the cockpit now made sense 40 years ago, 
but it doesn't make sense today. And when I talked to some 
pilots in private about it, they said, ``We would love to have 
a camera that is trained on the rest of the airplane to know 
what is going on back there, and we would also like to have one 
in the cargo hold so if something is going wrong, we know what 
the nature of the problem is.''
    Are you looking at other changes within an airplane that 
might address some of those surveillance issues you raised in 
your testimony?
    Mr. Baker. Absolutely. Let me talk just a minute about the 
door so that you understand what we are into there. That door 
is not simply a door hanging on hinges that opens and closes 
with a key and a lock. That door is a very sophisticated device 
that must deal with other parameters of the aircraft, 
specifically two.
    If there were a decompression in the cockpit, we lost a 
cockpit windshield, all of the air in the cabin will 
immediately rush forward and try to exist via that missing 
windshield area. That door cannot become a projectile from that 
decompression activity. So the door and that whole bulkhead 
must perform to allow the air to pass through without 
structurally damaging the airplane.
    So when we talk about hardening it, you and I could go out 
and decide let's put metal strips on, let's put deadbolts, 
let's put steel. We can make it strong, but we are going to 
lose that other functionality.
    The second parameter that is in the Federal Air Regulations 
we have to pay attention to is that door must be removable in 
the event of an accident so the crew can exit rearward or the 
passengers can exit forward. So if you look at the door the 
next time you get on an airplane, you will see the hinges are 
very carefully designed with cables to pull the pins out of the 
hinges so you can literally throw the door to one side and get 
out of the airplane.
    So we are balancing lots of objectives here in that door, 
but we have some very specific, and I think, constructive 
ideas, both short and long term.
    We are very concerned about the crew's ability to know who 
might be trying to get in the cockpit and make sure that 
whenever that door gets opened that it is, in fact, an 
authorized person. A video camera aimed at the door area is 
certainly one of the alternatives we are going to suggest, in 
addition to some other techniques for the flight attendant part 
of the crew to alert the cockpit that something irregular is 
going on in the back of the airplane. So I think you will see 
some of that.
    Video cameras in the cockpit is a different subject for a 
different day, I think, because if the bad guy gets in the 
cockpit, we have failed.
    Senator Durbin. Yes.
    Mr. Baker. We are working to keep them out.
    Senator Durbin. I also was surprised when a pilot told me 
that a camera in the cargo area might be of some value, too.
    Mr. Baker. It would be because in the case of fire, smoke, 
or an animal gets loose, it could be useful.
    Senator Durbin. Mr. Harvey, thank you for coming, and 
although I just caught the end of your testimony, I read it, 
and am very happy that you joined us today and told us about 
your experience.
    How does your company recruit those who work at the 
screening stations at O'Hare?
    Mr. Harvey. I am not directly involved with the recruiting 
process, but as a company, we use standard procedures, 
newspaper advertisements. We also have an employee referral 
type program.
    Senator Durbin. How long have you worked at O'Hare on the 
screenings?
    Mr. Harvey. Five years.
    Senator Durbin. And have you seen a change in the kind of 
employees that are being hired by the company?
    Mr. Harvey. Well, I see a broader mix. When I first started 
we had quite a few very young individuals. Now I see that it is 
spread out. We have a nice wide variety of people of all ages.
    Senator Durbin. And what is the starting salary for someone 
working the screening equipment?
    Mr. Harvey. At O'Hare Airport, our screeners start out at 
$6.75 an hour.
    Senator Durbin. Any benefits with that?
    Mr. Harvey. Yes, we do have company benefits that are 
contributory, health insurance, life insurance, dental 
insurance, and that type of thing.
    Senator Durbin. And is that a full-time, 40-hour a week 
job?
    Mr. Harvey. Yes. We work pretty much 8 hours a day, half an 
hour for lunch, two 15-minute breaks.
    Senator Durbin. Colonel Griggs, I want to ask you about 
your monitoring of screening operations at Lambert Airport. Can 
you tell me, as the manager of the airport, how you monitor 
their activities?
    Mr. Griggs. Well, basically we have established the 
presence of one of the policemen down there who is an armed 
policeman. He supervises other things, but his job primarily 
while he is down there is to watch the security people, watch 
how they behave. If they are doing something that is 
irresponsible like clowning or all the rest, to call his 
attention to it. And I think probably that plus my talking to 
the two managers of these companies had a profound effect upon 
them, that they know we are there. They do not know exactly 
where they are going to be at 24 hours a day, but I can tell 
you, that doing the 16 hours, which is most of the time the 
checkpoints are open, we have a profound presence and will 
continue to have it.
    Senator Durbin. And I can feel the difference. I can tell 
you, it makes a difference. I think the environment around 
those screening stations has changed.
    You raised a point which is important, and I am sure Mr. 
Baker could testify from his perspective on this, and that is 
the increase in your insurance premiums. Are those increases--
you talked about a tripling of the liability insurance for the 
airport--is that since the September 11 occurrence?
    Mr. Griggs. Since September 11. We had just renegotiated 
our entire insurance. We were being offered, and I think my 
figures are provided to the record, but if I am correct on 
this, we were offered $350,000 worth of insurance for $78,000. 
We just got that turned down, and we have now been offered 
$50,000 premium for $650,000 premium. We have been charted $600 
million, now must pay $600,000 for it. This is an abominable 
thing. This is what we brought in our testimony, that my mayor 
provided to the Council of Mayors. Not only is it important for 
the airlines to be guaranteed liability or they are not going 
to fly, I have got to have some relief on this or I cannot 
protect the public beyond that air side to the land side. I 
cannot do it.
    Senator Durbin. Mr. La Pier, have you run into the same 
thing?
    Mr. La Pier. We have, Senator. Recently a good portion of 
our liability insurance has been canceled. We are renegotiating 
its reinstatement, but it was canceled for the purpose of 
increasing the premiums.
    Senator Durbin. Senator Lieberman.
    Chairman Lieberman. Thanks again, Senator Durbin.
    Mr. Baker, let me ask you the question I asked Mr. Belger 
and the earlier panel. Do you know--I think you called it--what 
the percentage usage of planes is now since September 11?
    Mr. Baker. First of all, the industry, has, as a general 
statement, reduced the size of the schedule we are trying to 
fly by approximately 20 percent, so we are not offering as much 
product as we used to. This is a relatively slow time of the 
year anyway. This situation has clearly impacted us severely. 
Our load factors yesterday on the domestic system were just 
over 50 percent of the reduced schedule.
    Chairman Lieberman. And what is the norm for this time of 
the year?
    Mr. Baker. This time of the year should be in the mid 60's.
    Chairman Lieberman. So we are down, but not--I mean, it is 
significant, but it is not overwhelming.
    Mr. Baker. Except I have 20 percent of the assets sitting.
    Chairman Lieberman. Sitting, OK.
    Mr. Baker. Now, I talked yesterday to our manager of 
revenue, who looks forward 180 days, and compares the booking 
build every day against a year ago, so we can tell whether we 
are in trouble versus a year ago each day of the week.
    He sees nothing in the advanced booking trends that 
suggests that the public is returning in the form of making 
reservations.
    Chairman Lieberman. Well, that is the important point. In 
other words, people have not yet regained sufficient confidence 
to bring the usage back to anywhere near where it was before 
September 11.
    Mr. Baker. Absolutely not. It fell off, and it stayed down 
since September 11.
    Chairman Lieberman. Yes. Obviously, for an industry that 
was already having economic difficulties.
    Mr. Baker. Exactly.
    Chairman Lieberman. So I know it is more complicated than 
this, but it does seem to me that those numbers cry out to us, 
and the Department of Transportation, the industry, everybody 
to take quick and dramatic action to reassure the public that 
it is safe to fly again.
    Mr. Baker. We think building confidence of both crews, and 
passengers, and the American public is essential, and that is 
why I believe when you see the recommendations we make to 
Secretary Mineta, we are trying real hard to do some things 
right now to build that confidence and have a demonstration of 
change so that we can begin that building process.
    Chairman Lieberman. I take it from your testimony and the 
three points that you said, the second one was sky marshals, 
that one of the things you think we should do as quickly as 
possible is to increase the number of marshals on planes.
    Mr. Baker. Absolutely. And I think by combining those three 
functions that I mentioned, I think we deal with another 
problem. I think part of the high screener turnover that we 
reviewed earlier certainly has to do with low wages because 
people will always move toward higher wages somewhere in the 
economy, but I also believe that we need to deal with the 
content of the job. These are tough jobs because they're kind 
of monotonous, and so by combining those three functions, it 
seems to me, and doing some rotation, we create variety, which 
makes a job much more interesting.
    And, finally, we create a promotional ladder potential so 
that somebody like Mr. Harvey, who is very aggressive and 
capable, can move from one part of the security function upward 
to another and up a management ladder. Now we are starting to 
build a security culture that is here forever.
    Chairman Lieberman. The sky marshals now are not in 
uniform, correct?
    Mr. Baker. They are not. They are in plainclothes.
    Chairman Lieberman. Do you think that should continue to be 
so or should they be in uniform?
    Mr. Baker. I think they should be in plainclothes for 
maximum effectiveness.
    Chairman Lieberman. And I suppose as a matter of--I agree 
with you--as a matter of deterrence, if we say that there will 
be a dramatic increase in the number of sky marshals and, in 
fact, there is a dramatic increase, but we do not put them in 
uniform, then anyone intending ill on a plane would have to go 
on assuming that a sky marshal was on that plane.
    Mr. Baker. I think it is a very important deterrent to not 
disclose everything that we are doing, but to clearly state the 
intent and how we are going to get there.
    Chairman Lieberman. Under the current system, I just want 
to get a fact on the record, unless I missed it up until now, 
the requirement that the law puts on the airlines to provide 
the screening at the checkpoint, am I correct, and somebody 
said to me in the last couple of weeks, the airlines add $5 to 
every ticket to pay for security; is that correct?
    Mr. Baker. No.
    Chairman Lieberman. I was under the impression that there 
was no fee associated with the security responsibilities that 
you have been given, but it is to be taken out of your normal 
operating.
    Mr. Baker. That is correct, and we believe that the large 
carrier industry represented by the Air Transport Association, 
which is 90 percent or so of all of the passengers being flown, 
spend about a billion dollars a year on security at airports 
alone. We think that is roughly the number.
    Chairman Lieberman. Mr. Harvey, I wanted to ask you, from 
your perspective because you have been on the front lines, and 
I appreciate your testimony, at one point you said in your 
testimony--I want to quote it exactly--``From all indications, 
there is no evidence that all activity by a checkpoint 
screener, all of whom are following FAA regulations correctly, 
contributed to this horrible tragedy of September 11.''
    I do not want to contest that. I wanted to ask you--because 
we do not know exactly yet. We know from the stories we have 
heard, apparently, that the terrorist had either these box 
cutters or maybe plastic knives. So I want to ask you, as 
somebody who has been there, screened, trained, knowing now 
what we pieced together about what happened, how would you 
guess they got those tools, weapons, on the planes?
    Mr. Harvey. Prior to September 11, on the security 
checkpoints, we had a set of guidelines regarding the length of 
knives, also whether they were menacing and that type of thing. 
Right after that, right after the incident, we did, FAA changed 
that particular directive as a direct result of the incident.
    Chairman Lieberman. So it is possible----
    Mr. Harvey. There were several--go ahead.
    Chairman Lieberman. I am sorry. It is possible, I know some 
of the stories I have seen said they might have taken plastic 
knives on, that they might have gone through the system, as the 
FAA regulations existed at that time?
    Mr. Harvey. Exactly. Because if a person only had a plastic 
knife on their person and walked through a metal detector, the 
metal detector----
    Chairman Lieberman. Would not go off.
    Mr. Harvey [continuing]. Would not go off.
    Chairman Lieberman. Right. How about what we have all been 
describing as box cutters, would that have set the metal 
detector off?
    Mr. Harvey. Possibly, in the sense that the metal detector, 
the magnetometer is set up to detect a small-caliber weapon, 
and the operational test piece that we use to test the metal 
detector functions, if the box cutter did not weigh the same as 
that particular test item, then the metal detector should not 
alarm.
    Chairman Lieberman. Yes.
    Mr. Harvey. Because it is based on density.
    Chairman Lieberman. So we cannot say definitely that a box 
cutter would have set off the magnetometer.
    Mr. Harvey. Exactly.
    Chairman Lieberman. And, of course, the other explanation, 
which we have mentioned earlier, we have seen in the media, is 
that they did not go through the screening with these devices, 
but some other airport personnel might have placed them on the 
planes beforehand. We do not know that.
    A final question for you, Mr. La Pier. We have all been 
absorbed by the information and different theories about what 
happened here, and I am sure you noted with more than casual 
interest that the terrorists who took the plane from Logan, two 
of them who took the Logan plane down, entered in Portland, 
Maine, went into the airport of Portland, Maine. So the 
question was raised why did they do that? Did they do that 
because security was less at that regional airport, and once 
they got on the plane there, they were inside the system?
    I wonder just from your expertise and experience, it may 
have been obviously a totally different reason, but how you 
reacted to that pattern that they followed.
    Mr. La Pier. Let me preface my response with this. I 
believe that smaller airports are equally secure as larger 
ones, but I do believe that the system does not recognize that 
and believe that there are, because of the way we connect 
passengers through regional carriers feeding larger carriers, 
in our case, you clear security at Bloomington normal at 
Central Illinois Regional Airport, you may fly to Paris before 
you see another security agent.
    Chairman Lieberman. Right.
    Mr. La Pier. It may well be that we need an extraordinary 
amount of attention paid to airports the size of Central 
Illinois Regional Airport to ensure that we are not the 
security hole. I do believe firmly that airports our size are 
secure under the regulation, but I do believe that there are 
things that we can do to make sure that we are even more 
secure.
    Chairman Lieberman. Well, I appreciate that answer, and I 
go back to yours, Mr. Harvey. After September 11, the FAA 
regulations changed, I gather, that is, in regard to the 
plastic knives, but would the magnetometers now be more likely 
to--has something been done with the equipment to make it more 
likely that they would pick up box cutters or the box cutters 
would----
    Mr. Harvey. No, the directive that changed for the length 
of knives and that type of thing?
    Chairman Lieberman. Yes.
    Mr. Harvey. At this point in time, we are not allowing any 
knives of any size to go.
    Chairman Lieberman. Right.
    Mr. Harvey. As far as being able to detect a plastic knife 
as it comes through the metal detector, the change in the 
system that was implemented after September 11, we now have to 
do continuous hand-held metal detector searches. As people come 
through the security checkpoint----
    Chairman Lieberman. Yes.
    Mr. Harvey [continuing]. We have to do hand-held----
    Chairman Lieberman. The wand.
    Mr. Harvey. Right.
    Chairman Lieberman. Would that pick up the plastic knife?
    Mr. Harvey. The wand itself would not, but if they were 
doing the procedure, if a screener was doing the procedure 
correctly, the wand itself would sound off, not as far as 
alarming for metal, but you would hear--can I demonstrate?
    Chairman Lieberman. Yes. Sure.
    Mr. Harvey. Hear that?
    Chairman Lieberman. Yes.
    Mr. Harvey. OK. If the screener is using the hand-held 
metal detector correctly, if he hit the plastic or she hit the 
plastic, then you should hear the sound, and then go to a pat-
down in order to detect that particular type of weapon.
    Chairman Lieberman. I can tell you from the experience that 
I described earlier at Dulles the other day, the wand picked 
up, I was carrying a few credit cards loose in my coat pocket, 
and it picked them up.
    OK. Painful lessons I guess we learned from September 11. 
Thank you very much.
    Senator Durbin [presiding]. Senator Voinovich.
    Senator Voinovich. Mr. Baker, you said the airlines spend 
about a billion dollars a year on security.
    Mr. Baker. Yes, sir.
    Senator Voinovich. I would be interested, and I should know 
this as the former mayor of the City of Cleveland, who hires 
the security company, the director of the airport? How does 
that work?
    Mr. Baker. The responsibility to perform various security 
measures to protect our aircraft and our passengers is passed 
from the FAA to the air carrier, as part of our operating 
certificate responsibility. We have the choice of doing that 
ourselves with our own people if we would choose to or hiring a 
contractor. So we hire the contractors.
    In many airports, we share that responsibility. On a given 
concourse where there are multiple airlines on a concourse, one 
carrier will take on the management of the checkpoint, we will 
split the costs and so forth.
    Senator Voinovich. So that the security people, in effect, 
they are not answerable to the airport director, but rather 
they are answerable to the airlines, and if you have got a 
multiple concourse, you prorate the costs.
    Mr. Baker. With the exception of the law-enforcement 
officer function. That is typically provided by the airport or 
the city, and those folks are at checkpoints or spread between 
a couple of checkpoints at each airport, and they are typically 
paid for by the airport and answerable to the airport.
    Senator Voinovich. And depending on the budget of the 
airport is or the city, providing those people will depend on 
what that budget situation happens to be.
    Mr. Baker. I think that is correct.
    Senator Voinovich. Following up on the statistics here of 
the turnover, were you aware of those statistics in those 
airports?
    Mr. Baker. Yes.
    Senator Voinovich. What did the airlines do about those 
statistics?
    Mr. Baker. Well, it is interesting because we share those 
kinds of statistics in many of the other jobs in the aviation 
sector during a full-employment economy. We have had very high 
turnover in our entry-level jobs, in our ticket counter 
positions and on the ramp, so they are not particularly 
different than what we see throughout the beginning end of 
aviation.
    Senator Voinovich. But the thing that is interesting, Mr. 
Griggs, is the unbelievable turnover rate in St. Louis. Were 
you aware of that number?
    Mr. Griggs. I was aware of that number with the airlines.
    Senator Voinovich. Was it attributable to the fact that the 
private company that was hired, and I assume a private company 
handled that, that was paying different wages, say, than what 
they were paying at some other airport where the turnover is 
lower? Mr. Harvey, you said they start at $6.75; is that right?
    Mr. Harvey. That is correct.
    Senator Voinovich. Mr. La Pier, do you know what the 
security people get at your place?
    Mr. La Pier. I do not know. We are not privy to that 
information, sir.
    Mr. Baker. These folks, Senator, do not necessarily go from 
one security company to another. They leave the industry to 
other parts of the economy usually pursuing different hours of 
work or slightly higher wages in the fast-food industry.
    Senator Voinovich. But the point I am getting at is that, 
from your perspective, if you see those numbers, does anybody 
ever say, hey, what is the problem there? Is the salary level 
less at that place, the fringe benefits, the package less and 
that is why we are having the turnover, and do we need to do 
something about that?
    Mr. Baker. Realistically, I do not think so because they 
are not unusual, and they have been that way for a number of 
years, and we see it in other parts of our business, 
particularly in the last 2 or 3 years with a full economy.
    Senator Voinovich. Federalize it?
    Mr. Baker. Yes, sir.
    Senator Voinovich. Anybody disagree with that?
    Who pays for it? If we federalize it, who pays for it? Do 
the airlines pay for the federalization, and do you want the 
Federal Government to have Federal employees do it or do you 
want them to contract it out? What is your preference?
    Mr. Busick. Mr. Voinovich, I think that if you look at the 
system as a whole, there are portions of it that have to be 
done with general tax revenue. You have law-enforcement issues, 
you have intelligence issues, you have all of those issues that 
currently are paid for out of general revenues, and they need 
to continue to be paid for out of general revenues because they 
are very national security in nature, and you cannot parse out 
the portions of the CIA, the FBI or any of the other 
intelligence agencies to figure that out.
    On the other hand, the cost of the individual, of what Mr. 
Harvey does, that direct screener function, probably could be 
parsed out and that probably ought to be paid for by some user 
fee.
    Mr. Griggs. I do not think there is a passenger in the 
United States of America that would object to paying 50 cents 
to a dollar on a ticket in order to get adequate security.
    Senator Voinovich. But the question I have is if we 
federalize it, and it goes to the FAA or somebody else, you 
want them to do it themselves? Should they be Federal employees 
or do you think that they should hire private contractors?
    Mr. Griggs. My personal opinion, it should be a Federal 
employee, and he should be paid for by that agency's budget.
    Mr. Busick. Sir, I do not really have a preference. My 
concern is the quality of the screening process and making sure 
that whoever does it is required to be appropriately trained 
and actually be able to find the things we are looking for. Who 
the employer is, is much less important.
    Mr. Griggs. I think Monte Belger testified, sir, that they 
were looking at this, and I would wait for them to come back 
with what their recommendation was. I think they are looking at 
that specifically.
    Mr. Baker. Senator, our preference would be that it be a 
government-owned corporation so that we can gain the benefits 
of some of the flexibility inherent in that approach rather 
than simply tack it onto an existing department of the United 
States.
    I think probably the costs, rightfully, should be shared 
between those who use the aviation system and the General 
Treasury since this is a crime against America. This is just an 
example of terrorism in our country. They are not mad at the 
airlines. The airline was not the target, it was America. I 
think that we believe that is a national priority and certainly 
ought to be shared by all of the taxpayers of the country. But 
I think there is some sharing that needs to happen in there. We 
are spending a billion dollars. That certainly ought to be 
available, and if we want to do some more with the passengers, 
perhaps that is another approach.
    Senator Voinovich. And it is the cost of your ticket. I 
mean, you have to build that cost in across the board.
    Mr. Baker. One thing we would very much like to see if we 
go toward a surcharge of some type is that we would like to 
have that as an add-on specified charge below the fare so that 
we can continue to advertise a $200 fare and a $1 security 
surcharge so the American public sees that surcharge for what 
it is, and it does not get rolled up into the fare ball, and 
then we cannot show the American public what we are doing with 
the money.
    Senator Voinovich. Your costs went up three times. Is it 
because of insurance costs or are you hiring more people or are 
you paying higher wages or what?
    Mr. La Pier. That is simply personnel costs, sir. We have 
not----
    Senator Voinovich. You are hiring more people then.
    Mr. La Pier. Actually, we are.
    Senator Voinovich. So that is why it went up. You did not 
raise the salary, you just hired more people.
    Mr. La Pier. Hired more people.
    Senator Voinovich. My last question, and I have taken 
enough time. I talked to somebody very high up in the 
government today, and I will not mention his name, but somebody 
very high up, and indicated that I am the Ranking Member of the 
Oversight of Government Management, Restructuring, and the 
District of Columbia, and the closing of Reagan National 
Airport has had a very negative effect. Well, 10,000-and-some 
employees out there that some of the representatives are 
concerned about here, and it is having a negative impact on the 
economy of D.C. But I think it is also having a negative impact 
in terms of people's confidence in security. And if the premier 
airport in the Nation's capital is not open because of security 
reasons, do you not think that sends a very bad signal out 
across the country, in terms of security, and that we ought to 
be doing everything we can to, as soon as possible, 
understanding how important security is, I would not want to 
risk that, but to get that airport open because it sends a 
major message out across the country?
    I would like your reaction.
    Mr. Baker. I, clearly, would support that view. We have 
moved our entire operation to Baltimore and Dulles, including 
the employees. I think there have to be ways that we can get a 
great deal more comfort that an airplane shooting the river 
approach, which is the one they are worried about, down the 
river, is in the hands of the right people before they allow it 
to shoot that approach. So I would be surprised if they do not 
find a way to get that open in a secure way in the next couple 
of weeks.
    Mr. Griggs. I also echo that. I think it is absolutely 
essential. It is the symbol of American air power and it is a 
symbol of the country. And if they keep that airport closed, it 
remains closed, that is a lesson that they have learned and 
they have won, and this really bothers me tremendously.
    Mr. La Pier. Senator, I would fully agree. I think that the 
airport needs to be opened. We cannot allow the people that 
perpetrated this crime to shut down a premier airport in the 
United States today. We need to look seriously at reopening 
that airport as soon as possible, if for no other reason than 
to show the terrorists that they did not win.
    Senator Voinovich. Thank you.
    Senator Durbin. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I regret 
that I was not here earlier, but I wish to thank you, and 
Senator Lieberman, and Members of the Committee for having this 
hearing today. For a moment, I wish to speak particularly about 
Hawaii. Without question everyone knows how much Hawaii relies 
on air transportation.
    Hawaii depends on the commercial airlines for mail and 
cargo, as does Guam. It all stopped on September 11. There were 
several days there when nothing was delivered, and as a 
Senator, I heard from people who were asking for medicine and 
other necessities that were not delivered. Of course these 
problems were a result of what had happened. Who would ever 
think that somebody would use a 757 as a missile rather than as 
an airplane to carry people? This means that we must change our 
aviation security to make it safer and to detect any problems 
that might occur, some of which were mentioned here today.
    I am glad to see you here, Mr. Baker, and others of you on 
this panel representing the aviation industry.
    I have some questions, and, Mr. Chairman, I also have a 
statement that I would like to include in the record.
    Senator Durbin. Without objection.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    September 11, 2001, was a day America will never forget. We have 
all seen the tragic images of commercial airliners crashing into the 
World Trade Center and the Pentagon. These terrorists, while aiming for 
symbols of our financial strength and military might, succeeded in 
targeting our sense of security. We long believed that our country was 
immune to such acts of violence. We now see that, with the ever 
widening gaps in our security systems, our Nation is no longer secure. 
And while we may never know exactly how the terrorists were able to 
board the planes, we must nonetheless implement new security measures 
to ward off future threats.
    First and foremost, we must take a critical look at our baggage 
screening process. The turnover rate and lack of training for screening 
personnel is alarming. Although the turnover rate for airport security 
personnel in Honolulu is 30 to 40 percent compared to 400 percent 
nationally and the employees there are well trained and tested 
repeatedly every day, Hawaii cannot afford to feel immune.
    For example, International Total Services, the company contracted 
to manage airline security at the Honolulu International Airport and at 
more than 100 other airports in 34 States, tested the effectiveness of 
the security checkpoints in which fake hand grenades were taped to 
wheelchairs. Sadly, in seven out of nine trials, the wheelchairs with 
the fake grenades passed through undetected. In another incident, just 
4 days after the terrorist attacks, a person without a ticket was 
discovered beyond the security checkpoint at the airport in violation 
of FAA rules.
    Although Honolulu's airport prides itself on the training and low 
turnover rate of security personnel, more must be done to increase 
weapon detection. This is especially true for a State like Hawaii which 
is so reliant on air transportation. Steps must be taken to ensure that 
proper security measures are in place for large commercial airlines, 
small passenger planes, charter planes and cargo planes alike.
    As we review the passenger and baggage screening process, we must 
also consider whether we should invest in technologies such as high-
resolution X-ray, cargo baggage imaging systems, or personal 
identification measures. However, as Congress pushes forward with much 
needed security measures in the next few weeks, we must be mindful not 
to erode our civil liberties. If through fear we become the military 
state of our enemies and cease to protect the freedom we so cherish, 
the terrorists would have accomplished their mission. They would have 
destroyed the very essence of America.
    I wish to express my sincere gratitude to the Chairman for holding 
today's important hearing. I look forward to hearing from our witnesses 
on how we can restore America's feeling of security in air travel.

    Senator Akaka. Mr. Baker, today we have been talking about 
the kind of problems that we have been facing and the cost to 
the airlines. When we talk about screening and security 
measures at the airport, we know that the airlines have been 
paying that bill. My question to you is if these systems are 
enhanced, and I am leaving aside the issue of lost revenues, 
what impact would it have on the carriers with this increased 
cost of security?
    Mr. Baker. I think that the economists that study our 
industry would suggest that as our costs go up for any reason, 
necessitating a fare increase to maintain the corporate entity, 
that the demand for our product will go in the opposite 
direction. The concept of elasticity of demand for our product 
is clearly there. As prices go up, demand goes down, and vice 
versa. So over the long run, increased costs drive increased 
fares that will have an adverse effect on demand.
    Then, as you know so well in Hawaii, we work very hard with 
all of the travel and tourism interests in Hawaii to try to 
keep the whole package of going to Hawaii affordable because we 
know what will happen if it gets out of sight--no one will go. 
So we are very sensitive to--over the long run--what happens to 
our costs and the effects on revenues that must come to cover 
those costs.
    Senator Akaka. As you know Hawaii is suffering 
tremendously. When a person called me and said, ``I just saw 
only one car in Waikiki,'' that gives you an idea of what is 
happening there. And the airlines of course are suffering.
    Mr. Harvey, you have been through the screening system, and 
have trained people to do it correctly. As a trainer of 
screeners, what challenges do you currently face in maintaining 
a competent workforce?
    Mr. Harvey. Well, it is really not, from a recruiting and 
hiring standpoint, I really do not have anything to do with 
that, but from a training standpoint, my goal all of the time 
is to make sure that each and every day, when we open up those 
security checkpoints at O'Hare, that I have well-trained, fully 
capable, fully qualified screeners on the checkpoint.
    Senator Akaka. When people apply for the jobs of being 
screeners, do you take any time to screen them?
    Mr. Harvey. Again, I say that I am not in the direct hiring 
process of screeners for our company, but what I do and take 
into account when they come into the classroom setting, there 
are two different settings that we have for the training of 
screeners. One, you have a 12-hour theoretical class. When they 
are in the 12-hour theoretical class, they are required not 
only to go through the theoretical class, but to take two X-ray 
image interpretation tests.
    They also have to take a language competency test, which is 
a 20-question test, and what I really look for is attitude. If 
they do not have the right attitude, then most of the time I 
make the decision not to let them go to our security 
checkpoints out at the airport. I will refer them back to our 
Human Resources people and see if we have anything else 
available for them in order to make an income.
    Senator Akaka. I wonder what you would suggest and 
recommend, since you have been a supervisor and trainer, and 
you have watched people come through the process. Would you 
have any thoughts or any recommendations as to how we can 
improve the system?
    Mr. Harvey. Well, one of the things that we can do to 
improve the system is just to make sure that we are very 
consistent. Everybody is talking about federalization of the 
screening process. The one thing that I can see that would be 
beneficial from my perspective would be that we be consistent 
throughout the system, no matter whether you are in Central 
Illinois or whether you are out at O'Hare, whether you are out 
at Reagan National Airport. We would all be doing exactly the 
same thing. We would all be trying to make the same decisions.
    The other thing is, as far as the technological advances 
go, at O'Hare, naturally, being one of the larger airports in 
the country, we have available to us all of the latest 
technology, as far as our X-ray machines, our walk-through 
metal detectors, our explosive trace detection equipment, the 
wireless communication with the threat imaging projection 
system, with our hand-held metal detectors. If that technology 
and equipment was available all the way across the country, now 
that would also enhance our capabilities of being a better 
screening operation.
    Senator Akaka. Thank you.
    Mr. Griggs, I want to conclude with you. Much attention has 
been focused appropriately on the security screening of airline 
passengers, but the level of sophistication and organization 
involved in the September 11 hijacks has raised concerns beyond 
the screening of passengers. Today's airports offer many 
conveniences. After you get through the checkpoint, there are 
restaurants and gift shops. How would the recommended security 
measures discussed today by our various witnesses address the 
physical screening of airport employees who work beyond 
security checkpoints?
    Mr. Griggs. Well, we are in the process at Lambert 
Airport--I cannot speak for other airports--of going through 
and revalidating everybody's badge. For example, if you had a 
badge, it is going to be revalidated. If you are like I am, can 
drive on the flight line, you have to have a background check 
done on you. So these are the kinds of things we can do.
    I think one of the ways the system broke down is this 
sharing of intelligence from the Federal level on down. I know, 
for a fact, that our FAA Civil Aviation Office was not provided 
some of these facts. We were actually getting, my chief of 
police was getting information from the FBI before the FAA was 
getting it. There is something wrong when that sort of thing 
happens.
    So I think irrespective of what you do on the Federal 
checkpoint, you have got to look at the whole system in 
totality--have we let an airplane crew member go through a 
checkpoint, have we let the concessionaire go through the 
checkpoint, have we delivered deliverables to that checkpoint 
to provide that restaurant service? And so the whole system has 
to be looked at.
    It is not just the checkpoint, it is the entire system and 
the way we operate. I think it was Monte Belger that summed it 
up, and Mr. Baker, who has got more experience than any of us, 
and that is the whole threat perception has changed. We had 
designed and put together a system that quite frankly it was 
more of a deterrent than it was an absolute guarantee we could 
get through this thing.
    Now we are facing a faceless enemy, and how do you face 
that? But it is something we have got to grow into, learn how 
to deal with it, and make sure we deal with it. That is what we 
are all talking about.
    Senator Akaka. Well, thank you very much.
    Thank you, Mr. Chairman.
    Senator Durbin. Thank you, Senator Akaka.
    We have really focused almost all of our discussion today 
on commercial aviation and major airlines, and yet for most 
airports, almost all of the airports that I am familiar with 
and represented here today, they share the airport with general 
aviation. And general aviation, as we know it, operates by 
significantly different rules when it comes to security and 
screening.
    I have often wondered if it is still possible, as it was 
September 10, for me to charter a jet at an airport, you name 
it, and to get on that jet without anybody ever asking who I 
am, what my criminal record might be, and to carry on board a 
bagful of whatever--explosives, guns--and to be in a position 
to take a jet plane under the same type of control as happened 
on September 11.
    It seems clear to me that general aviation is going to have 
to go through some substantial changes for airport security and 
general security. Has anyone here addressed that or considered 
that aspect of this discussion? Mr. Baker, has that come up?
    Mr. Baker. Well, we have certainly talked a lot about it 
within the airline circles because if the threat assessment is 
that airplanes as ballistic missiles, and clearly corporate 
jets and other forms of general aviation are equally capable of 
flying the mission. So we are going to have to think that 
through. We are going to have to understand how to prevent 
that, just as we are trying to do it in commercial aviation, 
not only in the shared airports, but as you know there are a 
tremendous number of other airfields in the country where there 
are no air carriers, and I am not quite sure how to deal with 
that.
    But we have really got to sit down and define the threat 
and then build a plan to deal with it. But until we understand 
the threat, we are not probably going to hit the mark. So I 
think some hard work on that is going to come, and then the 
plan will flow out of that, but it is clearly an exposure.
    Mr. Busick. Senator, I am aware that the FAA is actually 
looking at airline or FAR 108-type regulations for aircraft 
over 12,500 pounds in the corporate fleet, charter fleet. So 
they are already looking at it.
    Senator Durbin. I think that Secretary Mineta might have 
mentioned that last week in testimony, but clearly the 
customers and personnel of general aviation are also in that 
same airport setting, in that same secure setting, and they 
have to be viewed, I hope, with the same level of scrutiny as 
anyone who would be involved in commercial aviation. I do not 
think that there is much doubt or question about that.
    Let me ask you, Mr. Harvey, you have been at this for 5 
years; is that what your testimony is? And how often have you 
run into a situation at your security station where you had to 
call law-enforcement personnel? I know there are two times you 
mentioned in your testimony where you were given an award for 
your extraordinary service, but how often does that happen at 
an airport like O'Hare?
    Mr. Harvey. We probably run into--I will just give you a 
classic setting, the day of the incident--the very next day we 
caught a weapon on an employee coming through the checkpoint in 
their backpack. I think just last Saturday--we had three gun 
incidents, in the past week since the incident. So I would 
probably say we run into at least one a month, not so much 
because the person is trying to do anything to the airplane.
    Let me clarify that. Normally, it is a direct result of a 
person not understanding the law as it involves transporting a 
firearm from Point A to Point B. It is just the ignorance of 
the law, but screeners, at O'Hare anyway, they just do not miss 
weapons, not firearms, whether they are disassembled or whether 
they are assembled.
    Senator Durbin. Mr. Griggs, I know that O'Hare has 
exceptional devices that they use for bomb detection and other 
close scrutiny. I do not know if Lambert Airport does, but 
could either one of you tell me under what circumstances 
baggage or packages are referred to that kind of a device for 
examination.
    Mr. Griggs. I think, probably to be very frank, it has been 
on a random basis in the past. The whole thing again was a 
threat. It was a deterrent against a threat, and the threat, as 
we envisioned it, as the public understood it, as everybody 
understood it, that was the counterintelligence we had to 
counter against this. I think there could be better use of EDS 
systems, and I think airports are going to have to address 
this, and I think that the airlines are going to have to come 
to grips with it. If we have a system like this, we have to do 
it.
    Somehow we have got to get this cargo restored. Somehow the 
mail has got to be delivered. So all of these are deterrents 
that you can take and definite steps that would prevent some of 
this.
    We have the same surveillance equipment at our checkpoint 
that they have. It is just a matter of how it is used. We 
probably detect one or two guns a month, and basically most of 
it comes from just negligence on the part of the guy going 
through the checkpoint. ``I forgot to take the thing out. I am 
going hunting. I put it in the backpack,'' which they know they 
cannot do, but they get caught at it. Thank God they get caught 
at it.
    Senator Durbin. Thank you. Senator Voinovich.
    Senator Voinovich. I would like the permission of the 
Chairman to submit for the record a statement that I wanted to 
make.
    Senator Durbin. Without objection.
    [The prepared statement of Senator Voinovich follows:]

                PREPARED STATEMENT OF SENATOR VOINOVICH

    Good afternoon. I would like to thank Chairman Lieberman and 
Oversight of Government Management Subcommittee Chairman Durbin for 
calling this hearing this afternoon. As the Ranking Member of the 
Oversight of Government Management Subcommittee, I am pleased to be 
able to work with Chairman Durbin on the management practices of the 
Federal Government. This afternoon's joint full Committee and 
Subcommittee hearing focuses on how well our aviation security is being 
managed at our Nation's airports; an issue that is key to restoring 
faith in flying--a faith that is essential to the economy of our 
country.
    Mr. Chairman, the number one responsibility of the Federal 
Government is to ensure the safety and security of the citizens of the 
United States, and I am concerned that the government is not doing 
everything it can to ensure the safety of air travel. We need to 
determine whether allowing airports and airlines to be responsible for 
such a critical piece of our national security is appropriate in light 
of these recent acts of terrorism.
    At a hearing on the issue of airport security in the House of 
Representatives last week, Transportation Secretary Mineta announced 
one short-term fix that would require the imposition of stricter 
qualifications and training requirements for airport security 
personnel. Like most of my colleagues, I believe this is a necessary 
first step, however more must naturally be done. I look forward to 
discussing what additional steps today's witnesses believe should be 
taken to increase passenger safety and restore public confidence in air 
travel. I am pleased to report that this public confidence is already 
beginning to return; my flight from Cleveland to Washington earlier 
this week was packed. As Ranking Member of the District of Columbia 
Subcommittee, I understand the concerns both economically and 
symbolically of keeping National Airport closed. If the security needs 
can be addressed completely and thoroughly, which are our first 
priority, we should re-open the airport.
    I am also interested in discussing some of the issues raised in 
recent reports by the General Accounting Office and the Transportation 
Department's Office of the Inspector General; reports that are critical 
of the airport security industry for its alarmingly high rate of 
personnel turnover and the lack of incentives for airport security 
personnel. From my own experience as a chief executive of the City of 
Cleveland and of the State of Ohio, I know that such personnel concerns 
can only have a negative effect on the productive operation of one's 
enterprise. And when one's enterprise directly impacts the safety of 
millions of Americans, it is of particular concern to the U.S. 
Congress. I believe that adequate time and attention must be re-focused 
on improving employee incentives and addressing the high rate of 
turnover that plagues this profession.
    Finally, we need to remain vigilant in our effort to ensure the 
safety of air travel in this country. This can't be something that we 
react to during a time of crisis and then forget about once things 
settle down.
    Mr. Chairman, I would like to thank you again for calling this 
hearing today and I look forward to discussing how we can all work 
together to improve airline safety.

    Senator Voinovich. I would like to get back to the cost of 
paying for this federalizing of screening. Does your national 
organization have some information about the percentage of your 
costs that go into security? For example, the thing that I 
would love to see is you have a ticket, and what portion of 
that ticket is attributable to security? How much of that is 
going for security?
    I would also like to know, and I would, for the record, 
like to get the answer, the percentage increase that you have 
experienced over the last several years in your security costs, 
in terms of how it has impacted upon your bottom line. I would 
like to see how much the cost of living percentages have gone 
up. Has it been about what the cost of living is? Because we 
are going to have to get a handle, I think, on what the public 
is now paying as part of the ticket, in terms of screening. It 
gives us an idea of how much we should earmark for that 
purpose.
    Mr. Baker. We can try to develop those numbers through our 
industry association by asking the carriers to submit what they 
believe. These are difficult numbers to come by because the 
costs fall in lots of different buckets in the typical cost 
accounting system, but we will take that off and see if we can 
give you those kind of numbers.
    Senator Voinovich. I think it is important because I know 
when we finally get to this whole business, there is going to 
be an argument here in the Senate, and in the House, and maybe 
with the administration, about how do you allocate the costs of 
this, and it would be interesting to find out just how much 
right now the public is paying for security and does not know 
it. Thank you.
    Senator Durbin. I might say, Senator Voinovich, that I 
spoke to Senator Hollings this morning, and most of the bills 
that we are considering have a $1 surcharge on tickets. For the 
screening aspect of this, it is believed that the total cost, 
and I do not know how they come up with this number, would 
require a $4 surcharge for the screening part of this. So the 
question is how much would be general revenue, how much would 
be a ticket surcharge, and that has not been determined.
    Senator Voinovich. If he says $1 for a surcharge, if you 
look at what people are already paying for security, and I have 
no idea what it is, they could be paying $2 right now and not 
even know it or maybe it is more than that.
    Senator Durbin. That is right. I am sure we are going to 
explore that further.
    I want to thank the witnesses on this panel for coming 
forward today and really providing extraordinary testimony for 
this Governmental Affairs Committee. I thank you so much. I 
cannot think of anything more important for us to focus on, and 
you are going to help us understand it.
    The official record of the hearing will be open for Members 
to include statements and questions for the record, and the 
Committee stands adjourned.
    [Whereupon, at 5:50 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR CLELAND
    Mr. Chairman, thank you for the opportunity to speak on such an 
important issue as airport security. The terrorist attacks on New York 
City and the Pentagon on September 11 forever changed the way Americans 
travel by air. Increased security at the nation's airports has become 
standard procedure but there is still much more to do to protect the 
traveling public.
    We need to ease the fears of flying Americans while we take steps 
to ensure that the events of September 11 never happen again. We should 
adopt measures that assure the traveling public that from the moment 
they cross the first airport checkpoint until they reach their 
destination, they will have the benefit of the best technology, the 
most highly trained professionals, and the most secure aircraft that 
this nation can provide. These measures may include the federalization 
of screeners as professionally trained as our Customs agents, the use 
of high-tech explosives detection equipment, state-of-the-art 
identification and expanded background checks of airport personnel, 
improved coordination of intelligence information, to name just a few 
of the proposals.
    In fact, I am cosponsoring Senator Hollings' Aviation Security 
legislation to improve airport safety, which is one alternative which 
must be considered. This legislation establishes a deputy administrator 
at the Federal Aviation Administration for Aviation Security; 
establishes an Aviation Security Council that will coordinate national 
security, intelligence, and aviation security information among several 
agencies; federalizes Airport Security Operations and improves training 
and testing for screening personnel; and improves the screening 
procedures for passengers by checking names against a coordinated 
database comprising criminal, national security, intelligence, and INS 
information.
    This hearing will examine whether the screening of passengers and 
baggage should be managed and operated by the Federal Government within 
an existing agency or a newly created not-for-profit Federal 
corporation. This entity would have the security of airport and air 
travelers as its primary focus. Such an organization would also ensure 
that passenger and baggage screeners have uniform, more strenuous 
training and performance standards that apply throughout the nation. 
According to transportation and airport experts, such a system would 
take time to develop even though a lot of the current proposals were 
suggested years ago. It is vital, now more than ever, to do more than 
just authorize commissions and reports that only define and analyze the 
problem. We must develop a comprehensive strategy for responding to the 
September 11 tragedies and we must give the appropriate agencies the 
ability to implement new security measures. We must do this now.
    I personally support fast tracking regulations which directly 
impact upon our national security. Too often and for far too long we 
have put on hold publishing final airport security rules because of 
political pressures. In the past, more stringent security measures have 
been recommended and rejected due to cost or pressure to keep fares 
reasonable and avoid undue inconvenience to travelers. In fact, the use 
of government employees to screen passengers and baggage was considered 
and rejected when passenger screening procedures first were implemented 
in 1973.
    Mr. Chairman and members of our distinguished panel, the threat of 
terrorism remains as high today as it was throughout the 1990's when a 
plot to destroy 12 United States airliners was discovered and thwarted 
in 1995. We must do better. The future of aviation security hangs on 
the actions that we take today to prevent future terrorist attacks on 
Americans. The American people and the world expect us to follow 
through this time--God only knows what may happen if we do not. Thank 
you Mr. Chairman. I look forward to hearing from today's witnesses on 
how together we can achieve a safer aviation industry.

                 PREPARED STATEMENT OF SENATOR BUNNING

    Thank you, Mr. Chairman.
    I also want to thank our guests for being here today.
    What we witnessed on September 11 illustrates just how deeply 
certain groups hate America and the desperate measures they are willing 
to undertake to destroy us.
    I doubt there is anyone who questions whether we need to improve 
our airport security.
    Over the next couple of months, I expect Congress will be making 
many changes to our aviation system.
    We will be debating everything from hiring additional sky marshals 
to changing cockpit doors to possibly allowing pilots to carry weapons.
    Today, we are looking at the baggage and passenger screening 
system, and whether the Federal Government should play a role in this 
process.
    As several of our witnesses will testify and many government 
reports have indicated, the airport screening system has many flaws.
    Employees are paid low wages, with few or any benefits. Turnover is 
high. In fact, a GAO study indicates that the average turnover rate at 
19 of the country's largest airports was 126 percent during a 1-year 
period.
    Other issues we will have to look at include the amount of training 
screeners receive along with the type of technology used to detect 
dangerous weapons.
    Commercial aviation is a critical industry in this country, and we 
do need to make some changes to ensure we have the best airport 
security possible.
    The American people are looking to us for answers and solutions 
during this difficult time. We have already seen the horrific damage 
terrorists can inflict when our airport security fails.
    The challenges of balancing increased security against the economic 
necessity of a vibrant airline industry is great.
    However, I am confident that we can strike that balance. Today's 
hearing should be another good step toward that goal.

[GRAPHIC] [TIFF OMITTED] T6802.001

[GRAPHIC] [TIFF OMITTED] T6802.002

[GRAPHIC] [TIFF OMITTED] T6802.003

[GRAPHIC] [TIFF OMITTED] T6802.004

[GRAPHIC] [TIFF OMITTED] T6802.005

[GRAPHIC] [TIFF OMITTED] T6802.006

[GRAPHIC] [TIFF OMITTED] T6802.007

[GRAPHIC] [TIFF OMITTED] T6802.008

[GRAPHIC] [TIFF OMITTED] T6802.009

[GRAPHIC] [TIFF OMITTED] T6802.010

[GRAPHIC] [TIFF OMITTED] T6802.011

[GRAPHIC] [TIFF OMITTED] T6802.012

[GRAPHIC] [TIFF OMITTED] T6802.013

[GRAPHIC] [TIFF OMITTED] T6802.014

[GRAPHIC] [TIFF OMITTED] T6802.015

[GRAPHIC] [TIFF OMITTED] T6802.016

[GRAPHIC] [TIFF OMITTED] T6802.017

[GRAPHIC] [TIFF OMITTED] T6802.018

[GRAPHIC] [TIFF OMITTED] T6802.019

[GRAPHIC] [TIFF OMITTED] T6802.020

[GRAPHIC] [TIFF OMITTED] T6802.021

[GRAPHIC] [TIFF OMITTED] T6802.022

[GRAPHIC] [TIFF OMITTED] T6802.023

[GRAPHIC] [TIFF OMITTED] T6802.024

[GRAPHIC] [TIFF OMITTED] T6802.025

[GRAPHIC] [TIFF OMITTED] T6802.026

[GRAPHIC] [TIFF OMITTED] T6802.027

[GRAPHIC] [TIFF OMITTED] T6802.028

[GRAPHIC] [TIFF OMITTED] T6802.029

[GRAPHIC] [TIFF OMITTED] T6802.030

[GRAPHIC] [TIFF OMITTED] T6802.031

[GRAPHIC] [TIFF OMITTED] T6802.032

[GRAPHIC] [TIFF OMITTED] T6802.033

[GRAPHIC] [TIFF OMITTED] T6802.034

[GRAPHIC] [TIFF OMITTED] T6802.035

[GRAPHIC] [TIFF OMITTED] T6802.036

[GRAPHIC] [TIFF OMITTED] T6802.037

[GRAPHIC] [TIFF OMITTED] T6802.038

[GRAPHIC] [TIFF OMITTED] T6802.039

[GRAPHIC] [TIFF OMITTED] T6802.040

[GRAPHIC] [TIFF OMITTED] T6802.041

[GRAPHIC] [TIFF OMITTED] T6802.042

[GRAPHIC] [TIFF OMITTED] T6802.043

[GRAPHIC] [TIFF OMITTED] T6802.044

[GRAPHIC] [TIFF OMITTED] T6802.045

[GRAPHIC] [TIFF OMITTED] T6802.046

[GRAPHIC] [TIFF OMITTED] T6802.047

[GRAPHIC] [TIFF OMITTED] T6802.048

[GRAPHIC] [TIFF OMITTED] T6802.049

[GRAPHIC] [TIFF OMITTED] T6802.050

[GRAPHIC] [TIFF OMITTED] T6802.051

[GRAPHIC] [TIFF OMITTED] T6802.052

[GRAPHIC] [TIFF OMITTED] T6802.053

[GRAPHIC] [TIFF OMITTED] T6802.054

[GRAPHIC] [TIFF OMITTED] T6802.055

[GRAPHIC] [TIFF OMITTED] T6802.056

[GRAPHIC] [TIFF OMITTED] T6802.057

[GRAPHIC] [TIFF OMITTED] T6802.058

[GRAPHIC] [TIFF OMITTED] T6802.059

[GRAPHIC] [TIFF OMITTED] T6802.060

[GRAPHIC] [TIFF OMITTED] T6802.061

[GRAPHIC] [TIFF OMITTED] T6802.062

[GRAPHIC] [TIFF OMITTED] T6802.063

[GRAPHIC] [TIFF OMITTED] T6802.064

[GRAPHIC] [TIFF OMITTED] T6802.065

[GRAPHIC] [TIFF OMITTED] T6802.066

[GRAPHIC] [TIFF OMITTED] T6802.067

[GRAPHIC] [TIFF OMITTED] T6802.068

[GRAPHIC] [TIFF OMITTED] T6802.069

[GRAPHIC] [TIFF OMITTED] T6802.070

[GRAPHIC] [TIFF OMITTED] T6802.071

[GRAPHIC] [TIFF OMITTED] T6802.072

[GRAPHIC] [TIFF OMITTED] T6802.073

[GRAPHIC] [TIFF OMITTED] T6802.074

[GRAPHIC] [TIFF OMITTED] T6802.075

[GRAPHIC] [TIFF OMITTED] T6802.076

[GRAPHIC] [TIFF OMITTED] T6802.077

[GRAPHIC] [TIFF OMITTED] T6802.078

[GRAPHIC] [TIFF OMITTED] T6802.079

[GRAPHIC] [TIFF OMITTED] T6802.080

[GRAPHIC] [TIFF OMITTED] T6802.081

[GRAPHIC] [TIFF OMITTED] T6802.082

[GRAPHIC] [TIFF OMITTED] T6802.083

[GRAPHIC] [TIFF OMITTED] T6802.084

[GRAPHIC] [TIFF OMITTED] T6802.085

[GRAPHIC] [TIFF OMITTED] T6802.086

[GRAPHIC] [TIFF OMITTED] T6802.087

[GRAPHIC] [TIFF OMITTED] T6802.088

[GRAPHIC] [TIFF OMITTED] T6802.089

[GRAPHIC] [TIFF OMITTED] T6802.090

[GRAPHIC] [TIFF OMITTED] T6802.091

[GRAPHIC] [TIFF OMITTED] T6802.092

[GRAPHIC] [TIFF OMITTED] T6802.093

[GRAPHIC] [TIFF OMITTED] T6802.094

[GRAPHIC] [TIFF OMITTED] T6802.095

[GRAPHIC] [TIFF OMITTED] T6802.096

[GRAPHIC] [TIFF OMITTED] T6802.097

[GRAPHIC] [TIFF OMITTED] T6802.098

[GRAPHIC] [TIFF OMITTED] T6802.099

[GRAPHIC] [TIFF OMITTED] T6802.100

[GRAPHIC] [TIFF OMITTED] T6802.101


</pre></body></html>
